Case

V

#: 10902

■*

Page ID

K

Law Offices 01f Anthony L. RanJsen
Anthony L. Ranken
Kevin M. Ranken
I
Atiorc-eys

722 fv. Cno'Ch Sireet
Wailukti. Ma-ji., Ha-.a,, 9h7rVj'
(BOB) 244-7011 » Fav:/G0S) 2-i4-702?

Amber L.M. .Alexander
Legal Assistant

February 23, 1997
Taryn Christian
(hand delivered)
Dear Mr. Christian:

“.-trsSsrr—--

went with a self defense theory I believe thaHh^p contest identification and instead
support a self-defense theory of the case and S J® ,COn",d®rable evidence to
with your best hope for either an acoum!,’ !P f h
, Ch a defense wou,d Provide you
that the "third-man” defense which you have riP^T
verd,ct BV contrast, I find

^r„rsr'ihis:s'«2:'
identification and1going^itha^elWefense th86^?' adyanta°es by admitting
keep out various damaging pieces of evidpnr6^-^™

Start °ne is that we could

csrsavsr r* -™ss»u »

You understand that we will lose these advantpnfb 7 h°Pe °f successfu,|y contesting,
youi insimctions today, you have decided thai
As I understand
cannot'presenUoth^iurv
Therefore I
that is i

°f

in y0Ur own defense-

must
- Depending on how
or without supporting testimony from yot
case to be our best hope, with
in any case, you have agreed that we should

1

k

'

APPENDIX “B”
i :> -ri /

Case

*

2f^ae7^bp^1
#: 10903

V

Taryn Christian
February 23,1997
page two

bring out evidence of seif defense through other witnesses, such as the testimony that
Vilmar was seen immediately after the incident holding a kitchen knife in his hand.
As we discussed on Sunday, the trial strategy I will adopfis as follows:
(1) I will give a relatively brief opening statement, identifying for the jury some of
the possible issues in the case, and asking them to keep an open mind until all the
evidence is in. Ip opening statement, I will not commit us to any particular theory of the
C3S6,

(2) We will contest all aspects of the prosecution's case for which we have any
contrary evidence at all;
(3) At the close of the prosecution's case, we will evaluate where we stand and
decide together on what sort of a defense to put on; and
(4) At the end of all the evidence, we will once again evaluate the state of the
evidence, and I will argue any and all theories of the case that are reasonably likely to
lead to an acquittal or to a verdict on a lesser charge.
If there is anything in this letter that you do not think accurately reflects our
conversations,, please let me know. Otherwise, please sign the copy of this letter on
the bottom, where indicated.
Very truly yours,

Anthony L. Ranken
I have read and understood the above letter, and I consent to the defense strategy
outlined in the second-to-last paragraph of the letter.
Dated: Wailuku, Maui, Hawaii, February____, 1997.

TARYN CHRISTIAN

PagelD

Case 1: 0
-

V

#: 10904

PagelD

v
14

RANKEN’S OPENING STATEMENT
1

scene worn by the intruder like the one he always wore.

2

There will be a flannel jacket with blood

3

dumped on the ground at a beach park close to Kulanihakoi

4

Street.

5

flannel jacket, food service gloves.

Plastic gloves would be found in the pocket of this

6

He was a food server.

At the end of this case, I will ask you to do

7

three things.

8

using a deadly or dangerous weapon in a commission of a

9

crime.

10

I will ask you to find this .man guilty of

I'll ask you to find this man guilty of

11

attempted theft, and I will ask you to find this man guilty

12

of murder for stealing Vilmar's life.

13

THE COURT;

Mr. Ranken, does the defense wish

14

to make its opening statement at this time?

15

MR. RANKEN:

16

THE COURT:

17

MR. RANKEN:

Yes, your Honor.
You may proceed.
The two-pronged knife that was

18

found at the scene was not the only knife present that

19

evening.

20

this surrounding apartments who will tell you that they saw

21

another knife there.

22

You will hear the testimony of people who lived in

You'll hear the testimony of people who came

23

along before the police even got there who will tell you they

24

saw another knife, a kitchen knife, not a double bladed

25

knife.

But a knife also capable of causing very serious

APPENDIX “C-l”

Case 1:

Page ID
15

l

injury.

2

These independent eyewitnesses from the

3

neighborhood will tell you that she saw this knife in the

4

hand of the decedent Vilmar Cabaccang.

5

The residents of the area came upon the scene

6

before the police did.

7

will prove through them that the decedent wheeled a knife in

8

this incident.

9

We will put them on the stand, and we

The evidence will clearly show the defendant

10

Taryn Christian was not out for a fight.

11

aggressor.

12
13

He was not the

He did not want any trouble.
Ladies gentlemen of the jury, this is not a

14

case about a brutal murder as the prosecution would have you
believe. Far from it. Far from it. There's a lot more to

15

this case than you've heard so far from the prosecutor,

16

intend to show you that there are reasonable doubts and more

17

as to several aspects of this case.

18

Taryn Christian was there.

He was there at

19

the scene.

20

another man there who has not been mentioned by the

21

prosecuting attorney,

22

and the decedent.

23

We

But the evidence will also show that there was

A third man besides Taryn Christian

The evidence will show that this third man

24

was a person known to the decedent's girlfriend Serena

25

Seidel.

During the course of this case, you will hear

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case 1:

o£®w§mmV

#: 10906

PagelD

V
16

1

evidence that she knew the man who was the other man who was

2

there, and that this man carried a knife and assaulted the

3

victim in this case with a knife.

4

Serena Seidel told bystanders she knew who

5

it was.

6

was that did this.

7

who that person was.

She didn't know Taryn Christian, but she knew who it

8
9

And you will hear testimony as to exactly

We will bring out a number of things both in
cross-examination of the prosecutor's witnesses and also

10

through our own witnesses.

11

things that are not consistent with the prosecutor's theory

12

of this case.

13

We will bring out a number of

And then later on through our own witnesses

14

and in final argument, we will help you put together the

15

pieces of this puzzle.

16

or the defense will probably be able to, at the end of this

17

trial, answer every question.

18

I don't think either the prosecution

We're going to do our best.

We don't have

19

the burden of proof.

20

you beyond a reasonable doubt what they say is the way it

21

happened.

22

They have the burden of proof to show

When we piece together the puzzle for you

23

in final argument after all the evidence is in, we will show

24

you that Taryn Christian is not guilty of murder,

25

approach opening statements in quite the same way as my

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

I don't

msmmim

Case 1:0

Page ID

17

1

colleague from the Prosecutor7s office.

2

I don't give away everything.

3

discover the evidence as it comes out, and I will not go into

4

a lot of details now of what we expect to evidence to prove

5

in this case.

6

anything.

I want to

And of course, again, we don't have to prove

It's the prosecutor that has the burden of proof.

7

But I will talk a little about some of the

8

facts, and then I'd like to discuss some of the issues.

9

prosecutor mentioned Lisa Kimmey, Taryn's ex-girlfriend.

10

how she couldn't bear it anymore and came to the police.

11

The fact is, ladies and gentlemen, Taryn

The
And

12

Christian broke up with Lisa Kimmey weeks — about a week

13

before she went to the police.

14

jilted.

15

police, and that is why she told them what she told them what

16

she could have known from other sources including the

17

newspapers.

18

She was very upset.

He dumped her.

She was

And that is why she went to the

Taryn broke up with her because he could no

19

longer handle her incredibly jealous, possessive, angry

20

behavior toward him.

21

dumped her and she got her revenge.

22

And this side of Lisa came out after he

The police officer in this case will tell you

23

one very curious thing.

24

the decedent's prized car were found two blocks away from his

25

car at the scene of this fight.

They will tell you that the keys to

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Page ID

Case
(

#: 10908

(
18

i,
i

1

And the prosecution will not be able to give

2

you any logical explanation for that.

3

there, but the decedent himself made a comment indicating he

4

could not understand why the keys to his car were there.

5

He had locked his car.

He thought he had the

6

keys.

After he was injured he asked his girlfriend about the

7

keys.

And to this date that's a question that she cannot

8

give a credible answer to.

9

V

Not only were the keys

We believe that we can.

Opening statement is a time for us to outline

10

for you some of the issues in the case, and this is so you

11

can have a framework, sort of an idea of what to look for

12

some of the issues that may come up.

13

It's hard to know exactly again what the

14

issues that you will want to focus on when it comes time to

15

deliberate.

16

the important issues to keep in mind that you will be asked

17

to decide.

So I'm just going to give you an idea of some of

18 '

One of the issues is who stabbed the

19

decedent.

Was it Taryn Christian or was it someone else?

20

You'll have to try to decide at the end of this case exactly

21

what happened when the decedent and his girlfriend —

22

MS. TENGAN:

23

going to object.

24

statement of facts.

25

Your Honor, excuse me.

I'm

I believe this is argument rather than

MR. RANKEN:

Your Honor, the opening

\
Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case 1:

PagelD
^

#: 10909

v
19

1

statements are to give an idea of the issues for the jury as

2

well as stating of facts.

3
4

THE COURT:

Maybe you can

rephrase, Mr. Ranken.

5

MR. RANKEN:

There will be a question and —

6

which I've given you some hints of as to what happened in

7

that fight.

8

present evidence that will cast serious doubt on whether it

9

was Mr. Christian who was responsible for the knife wounds

10

And you'll look at that very carefully,

We will

that Mr. Cabaccang received.

11

>.

I'll permit it.

We will present evidence that the knife found

12

at the scene did not belong to Taryn Christian, could not

13

probably have belong to Taryn Christian because his knife was

14

still up in his house in Kula after this incident, not in the

15

custody of the police.

16

You may also have to look at the question

17

of intent in this case.

18

that Taryn Christian had the desire to intent to kill Vilmar

19

Cabaccang.

20

Prosecution will try to convince you

They will try to convince you of that because

21

that's a necessary element of the murder charge, intent,

22

when we question the prosecution and defense witnesses and

23

give you folks a much better idea of just how this fight

24

happened and when we look at the things that were done and

25

said before during and after by the people involved, that

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

But

Case 1: o£m®VkStm
v

#: 10910

V

&&&&§&&

Page ID

20
X

1

evidence will show you that Taryn Christian never had any

2

such intent to kill anyone.

3

Taryn never had any reason to want to kill

4

the decedent Vilmar Cabaccang.

5

will show.

6

issues in this case.

Let me also tell you what I'm not going to be

7

\

And that is what the evidence

Things that are not going to be issues in

8

this case are some of the things the prosecutor has brought

9

up, like the fact that Vilmar had been working all day.

The

•10

fact that he kissed Serena when he came to her house late at

11

night.

12

affair with his car.

The fact that her child was asleep, or his love

13

These are things that affect us emotionally.

14

Your job as jurors is to be — to look at the facts, not the

15

emotions of this case.

16

emotional things aside and decide this evidence based on the

17

facts.

18

To sort that out, to put those

Give Mr. Christian the benefit of the doubt

19

as the judge has instructed you to do.

20

time to go into a detailed discussion of the law that applies

21

to this case.

22

And this is not the

But at the end of the case, Judge McConnell

23

will instruct you on the law that you're to use to make your

24

verdict, or verdicts since they're several charges to be

25

considered.

\

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case 1:0'

fh&§ 1

fit1

PagelD

#: 10911
21
\

And at that point you will see that the state

1
2

of mind of a person is a very important factor that you have

3

to take into account for making your decision,

4

issue on which the prosecutor has the burden of proof showing

5

the state of mind, in this case intent.

6

MS. TENGAN:

7

THE COURT:

8

This is an

Your Honor, I will object.
This is argumentative.

I'll

sustain that.

9

MS. TENGAN:

Thank you.

10

MR. RANKEN:

Okay..

The evidence will show

11

Taryn Christian did not have the necessary intent and cannot

12

be guilty.

13

relevant in this case, and there are many facts that will

14

coine out over the next two weeks .

There are a number of other issues that may be

15

Please just keep your ears open and your mind

16

open until we've completed the case and both sides have

17

presented their summations to you.

18

until then, you'll see that this case is very different and

19

far more complex than the prosecutor would now have you

20

believe.

21

If you keep an open mind

They get to go first because they have the

22

burden of proof,

23

present our defense.

24

until then and to look at the facts that are really proven

25

when all is said and done in this case.

It's going to be a while again before we
Your job is to keep that open mind

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

2f8srg^!®1 pageiD

Case 1:

22

1

So with that we'll let the testimony come

2

out.

3

even going to hint at right now.

There is much more that you will learn that I'm not

4

In closing argument, we will review the

5

evidence with you very carefully, and we'll have more time to

6

do that at that point and we'll point out places where the

7

elements are not proven.

8
9

So now it's time for the witnesses to
testify, and I will not have the opportunity to talk with you

10

again until the end of the case.

11

all for agreeing to serve as jurors, for being willing.

12

I look forward to speaking with you again at the end of

13

case.

So I -just want to thank you
And

Thank you.

14

THE COURT:

15

Ladies and gentlemen of the jury, I know it's
It's been a long day.

Thank you, Mr. Ranken.

16

late.

I'm going to excuse you.

17

Before you leave, however, I'm want to remind you not to

18

discuss this case with anyone or permit anyone to discuss it

19

with you.

20

Now, I know when you walk in the door this

21

evening, your spouse, roommate, family member, may ask you

22

about the case, and I'm not that naive.

23

family that you're instructed by the judge not to discuss it.

24
25

Please inform your

You will be able to discuss it after your
verdict has been received and you've been discharged but not

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case 1:0

PagelD
39

RANKEN’S CLOSING ARGUMENT
1
2

THE COURT:

For the record, counsel, the

defendant, and the jury are all present.

3

Mr. Ranken, you may proceed, please.

4

MR. RANKEN:

5

The prosecution would have you believe — and

6

Thank you, your Honor.

I'll settle in here I see people looking around.

7

The prosecution would have you believe that

8

statements Taryn made on the tape when he was on the phone

9

with Lisa Kimmey when he didn't know he was being taped

10

that^s when he was speaking the truth.

11

can really believe.

12

But let's be fair.

13

said on that tape,

14

one who pulled the knife.

15

and you know it.

16

made on that telephone call.

17

That's the part you

Let's look at all that he

"It didn't happen like that.

He was the

But it didn't happen like that,

These are some of the statements that he

The first time he talked to Lisa, he told

18

Lisa — and she testified that the police and the newspapers

19

were describing this all wrong that it didn't happen that

20

way.

21

you heard in court, he again says the same thing.

22

he, Vilmar, was the one who pulled the knife first.

And when he talks to her on the taped phone call that

23

He says

When Lisa refers to Taryn stabbing Vilmar, he

24

responds,

"It didn't even happen like that."

25

denying her version that she's saying on the tape, and that's

APPENDIX “C-2”

He keeps

Case 1:
PURSUk,

1 TO HRS 606 ^^jQQ^^RMISSI^

TO COPY DENIED

PagelD

40

1

only — remember the judge instructed you her words on that

2

tape are only to give you context for Taryn's responses.

3

They are not to taken as testimony or as proving the truth.

4

That anything that she says —

5

MS. TENGAN:

I'm going to object.

That's a

6

misstatement.

7

instructed to jury as to giving context except as necessary

8

to going to the evidence.

9

The Court's instruction — the Court has

THE COURT:

10

MR. RANKEN:

I'll overrule that.

Let's go on.

So don't take anything Lisa says

11

on that tape as her testimony or as something that Taryn told

12

her.

13

that tape.

She's trying to set him up, ladies and gentlemen, on
She is being fed the lines by the police.

14

She's trying to trap him.

15

responses.

16

on there.

Look at his

Look at what he does say and what he doesn't say
This is my last chance to speak to you.

17

The prosecution gets one more chance.

Why?

18

Because they have the burden of proof.

19

Since this is the only time I'll get to talk to you, I want

20

to thank you.

21

case, and I do want to ask for your attention for about

22

another hour because I do have some very important matters to

23

cover.

24

the time we're done.

25

I want to thank you.

You've all been most attentive jurors in this

And I'll — you'll have a perspective on this case by

I'm going to explore with you what really

Melissa D. Robertson, RPR, CSR 376
official Court Reporter
State of Hawaii

Case

J

PagelD
41

1

happened that night, what's proven, what's not proven, what

2

may have happened, reasonable possibility, the reasonable

3

doubts.
But I have to admit to you I don't really

4

A lot of times the jury thinks that the

5

know what happened,

6

lawyers know something they don't know, but the truth is

7

you've got all the information I've got now.
You don't know.

8
9

I don't know what happened

any better than the prosecutor, Judge McConnell, the police
And we've just got to try to figure this out

10

detectives.

11

together here.
So you may say well what right does —

.12
13

Mr. Ranken, what right do you have to talk to us if you don't

14

know what happened?

15

the evidence, very carefully reviewing all notes of witness's

16

testimonies, thinking about the testimony and exhibits and

17

what kind of conclusions we can draw, what kind of inferences

18

we can draw from that, that aren't readily apparent first

19

time through.

20

Well, I did spend all weekend reviewing

And that's what I want to talk to you about.

21

And as I say, I think you'll learn some perspectives that you

22

have not yet had on the case.

23

Now, the prosecution has the burden of proof

24

as to all aspects of the case, all elements of each charge.

25

They have to show — they have to prove where when, who, and

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case
TO COPY DENIED

PURSU\

Page ID

42

l

how.

2

They have to prove that it was not in

3

self-defense.

They have to prove intent to kill or knowingly

4

killing.

5

the influence of extreme emotional disturbance at the time.

6

And to convict a murder, they have to prove

They have to prove that the defendant was not under

7

all these things, and they have to prove them beyond a

8

reasonable doubt.

9

examine a little more closely what that means, beyond a

10
11

If I get time later in the argument, we'll

reasonable doubt-.
That's the highest standard in the land.

12

on the other hand, don't have to prove anything.

13

to try to help you see where there's a reasonable doubt.

14

reasonable doubt and you cannot convict.

15

doubt and you have to acquit as to any element.

16

I,

I just have
One

One reasonable

I'm going to explore with you three areas

17

where you may find a reasonable doubt.

One, whether there is

18

another person involved.

19

Taryn Christian was the one who administered these wounds.

20

If not — if they have proven that to your

Whether it's legally proven that

21

satisfaction, then we'll explore whether Taryn Christian

22

acted in self-defense.

23

these basis because I don't know — I can't ask you well how

24

you are you thinking about it now.

25

And if not, I'm going to cover all

Do you agree with me so far?

So I have to go

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

jwmi?

Case

Page ID

43

1

through — cover all the bases in this case,

2

people here who don't think it's self-defense, I have to move

3

on to the next stage and explore whether he possessed intent

4

to kill the decedent.

5

Now, closing argument, is undoubtedly the

6

most important part of the trial.

7

to put your heads together and think hard about the case.

8

What I've done to try to make it easier to organize it — let

9

me go over it with you.

10

:

If there's

It's where we really begin

I'll refer to it repeatedly throughout

11

argument to guide you and this tracks the Judge's

12

instructions as to the thinking that you have to go through

13

to responsibly make a verdict in this case.

14
15

Let me review it with you quickly so you're
able to follow the framework of my argument.

16

First question is:

Is there a reasonable

17

doubt as to who inflicted wounds?

18

doubt .that it was — that it may have been someone else

19

besides Taryn?

20

vote for a not guilty verdict and the rest is irrelevant.

21

Okay.

22

Is there a reasonable

If you answer yes, then of course you must

But if you answer no, you don't have a

23

reasonable doubt on that point of the identity, then you move

24

on to the next stage,

25

defense of self-defense applies in this case.

And that's to consider whether the

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

^§4/§@i9H&it1W404l8Hl^fel7|te

Case

■PURSUV.--TO HRS 606.#;3i)ga8RMISSIft

2f*ipe8§%PtM1 PagelD

JO COPY DENIED
44

1'

If you find that Taryn Christian — if you've

2

gotten to this stage, you've already found that he's the one

3

who did it.

4

haven't gone this way and you're going this way.

From now on, you know, I'm assuming that you

5

Okay.

If you go to this stage, then you ask whether

6

he was acting to protect himself, and that's — I put

7

reasonable belief because the test is not whether he really

8

needed to do it.

9

didn't where contact lenses and couldn't see as well as

He didn't know, for example, that Vilmar

10

another person who had 20/20 vision.

11

like that.

12

He didn't know things

What you look at is his circumstances, his

13

position at the time, being this 19-year-old terrified

14

teenager in the state he was in.

15

more detail.

16

point of view.

So we'll discuss that in

So that's why I put reasonable belief from his

17

What is going on that he acted in

18

self-protection.

19

guilty.

20

prosecution has proven this was not self-defense, then you go

21

on to the next question.

22

If you find that, then you vote not

If you find beyond a reasonable doubt that the

And that is you need to look at

23

Mr. Christian's state of mind at the time of this incident.

24

In order to prove the murder charge, the prosecutor would

25

have to convince you that it was intentional or knowing

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case
PURSL\ £ TO HRS 606^t3.09tlRMISSl(

TO COPY DENIED

PagelD

45

1

beyond a reasonable doubt.
If you find probably intentionally, maybe

2
3

not, you're not sure, but at least reckless beyond a

4

reasonable doubt, then you can convict of manslaughter.

5

If you find some other state of mind,

6

negligent, not rising to the level of reckless, then put

7

that.

8

guilty.

Other than that-, you would have to find him not

9

That's not the end of inquiry, though, even

10

if you've agreed with everything the prosecutor says so far

11

and find it was intentional, knowing, beyond a reasonable

12

doubt; you have move on then to — you have to evaluate if

13

Mr. Christian acted under the influence of extreme emotional

14

disturbance.

15

And we'll go over — I hope you're not trying

16

to make up your mind as we go because I haven't given you my

17

arguments on any of these points,

18

outline, but if we get to this point, extreme emotional

19

disturbance, then if you find no, he was not extremely

20

emotional disturbed beyond a reasonable doubt, you find that

21

he was not, then you would convict of murder.

I'm just giving you an

If you find that he was possibly in a state

22
23

of extreme emotional disturbance, you have a reasonable doubt

24

that maybe he was, then the proper verdict would be

25

manslaughter.

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case 1:0

TO HRS 606 #LiQ9g§TmiSSI l

iO COPY DENIED

PagelD

46

1

Now, you may have noted as we run through,

2

the prosecution has the burden of proof at every step of the

3

way right along the way.

4

"beyond a reasonable doubt."

5

That's why I continually put in

We don't have to show you that he was

6

extremely emotional disturbed.

7

that he acted recklessly, intentionally.

8

you that he was not extremely emotionally disturbed.

9

have to show you that he acted intentionally and not

10

We don't have to show you
They have to show
They

recklessly.

11

Now, ladies and gentlemen, I acknowledge to

12

you at the beginning of this case that Taryn Christian was

13

there the night this happened.

14

acknowledge to you now it's clear from the evidence Taryn

15

Christian was the one that was on the ground under Vilmar

16

Cabaccang, the one that Vilmar tackled.

17

that.

18

The question is — and I'll

We're not disputing

But what you need to look at first — the

19

first stage of this inquiry that's on the chart is was there

20

someone else there also, a third man who was present,

21

there are a number of things that came out in the testimony

22

that throw doubt on the question — on Serena's story and

23

throw doubt on whether maybe there was someone else, and we

24

ask you to question if that was someone else that was known

25

to Serena.

Melissa D. Robertson, RPR, CSR 376
Offipial Court Reporter
State of Hawaii

And

Jf®§@§B§§s®&gB PagelD

Case 1:

47

And I'll explain why I said that,

1

Someone

2

else who she did not want to implicate for some reason in

3

this matter.

4

what happened during the incident because of the tall bushes

5

that were there.

Now, none of the neighbors had a clear view of

6

You'll see them on the photo.

7

that one out, but you'll see the tall bushes that were there,

8

and they admitted that,

9

happening on the ground.

10

I didn't get

They could not see fully what was

So no one had clear view except Serena, but

11

afterwards both neighbors Judith Laury and Cynthia Warnock

12

saw a man running from the scene, not walking but running.

13

Now, why is that important,

14

leaving the area.

15

under street light there with the flannel jacket that Taryn

16

wore.

17

Because Phil Schmidt saw Taryn

We don't dispute that he did see Taryn

He saw Taryn leave the area, but when Phil

18

Schmidt saw him, he was walking not running.

19

neighbors saw a man a man running in the same vicinity.

20

And Judith Laury said that person that she

21

saw running had long hair.

22

him.

23

did not have long hair that night.

24
25

And yet two

She could see flapping behind

Now, Taryn Christian — we've proved conclusively —
Was there someone else?

Is that — does that explain the car keys.
Very interesting point.

Quite a mystery.

The keys were

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case

PagelD
48

The keys to Vilmar's car.

1

found at the scene.

2

presence.

3

car was opened without any apparent force.

4

officer told you that.

They are

Hasn't been explained by anyone involved.

Now the

The police

And before he lapsed into unconsciousness,

5
6

Tesha heard Vilmar say to Serena, "Why did you give him the

7

keys?"

8

the car keys earlier to someone?

Was there something that comment?

Had Serena given

Remember Vilmar had dropped off the car hours

9
10

before.

Had she given them to- someone that she had been with

11

earlier that evening, someone known to Serena and maybe to

12

Vilmar?
Serena didn't know Taryn, but there was

13
14

evidence that Serena indeed knew the person who stabbed him,

15

the person ■— "When Phil Schmidt asked, did you know the

16

guy?

17

at Vilmar as if not sure whether to tell.

18

they did know who did it.

Did you know who did this?"

She looked questioningly
And then she said

Robert Perry heard her say this three times,

19
20

"we know who did it."

21

her.

22

then she decided not to give the full story to protect her

23

friend.

24
25

Those were the words.

He quoted

Could it be that at first she was ready to tell, but

Look at Serena's strange behavior before
and after the incident.

Now, she says that she ran down the

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case 1:

PagelD
49

What do the witnesses

1

street yelling help, and call 911.

2

say?

3

say, wouldn't you would yell for help, call 911 in that

4

situation?

By the way, those would have been the natural things to

You wouldn't care who helped you, wouldn't

5
6

you?

7

as possible.

8

would come out of their house and help.

9

witnesses say that she really said "Tesha, Tesha, Tesha,"

10

You would just want the police there, notify it as soon
You would want help from any neighbors who
But what the did the

repeatedly Tesha.
Cynthia Warnock said later on she said she

11

I don't believe she's clear

12

heard someone ask for help,

13

whether that may have been Vilmar or Serena or a neighbor who

14

had come along by that point.

15

But during this crucial times, the witnesses

16

were clear, one after another, who heard — Judith Laury who

17

heard running down the street just Tesha, Tesha.

18

No "help.”

19

say "Tesha"?

20

involved.

21

was a friend.

22

She wanted someone who knew the parties.

No "Call; the police."

Why?

No "911."

Why did Serena just

Maybe because Tesha knew the third man

Maybe because Tesha could intervene because Tesha
Maybe because Serena did not want the police.

23

And Tesha said — oh, by the way, Tesha and

24

Serena knew each other a little better than she's admitting

25

on the stand.

Judith Laury remembers she saw Serena at Tesha

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case l:0£§momm
pa
PURS l\

: TO HRS 6O6#l|0gf^RMIS

• J WM!

Page ID

50

1

house she believed more than once before this incident.

2

And Tesha said that she was to meet someone

3

else there that night, somebody whose name came up in

4

conversations initially in the investigation of this case.

5

And next let's look at the descriptions that

6

Serena gave of the man who she said was there.

7

Holokai, what did she describe, someone with blond hair,

8

don't see any blond hair on this young man, ladies and

9

gentlemen.

10

To officer
I

I have notes here of what she said to

11

Detective Funes.

12

he had a police report written shortly after near the

13

beginning stages.

14

stand.

Now, he couldn't remember everything, but

Synopsis — I questioned him about on the

Detective Funes —

15

And Detective Funes had in that police

16

report, which he acknowledged, that the man they were looking

17

for was a quote "local-looking male," unquote.

18

get that?

19

description of local looking male if not from her?

He talked to Serena initially.

20

Where did he

Where did he get a

And she described someone also in terms of

21

the race of the person, she describes someone who was

22

possibly Portuguese or hapa haole.

23

He's not Taryn.

24

there and she didn't want to admit it?

25

wasn't sure what to say about the appearance at first?

That's not Taryn either.

Could it be that there was more than one man
Could it be that she

1
Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

she

Case

pursue

,

1

Page ID

ro COPY DENIED
51

1

didn't make up her mind, she wasn't sure if she wanted to

2

who she wanted describe.
Could it be she was actually trying to lead

3
4

the police astray a little?

5

police there in first place.

6

the police.

7

Remember she didn't want the
She wasn't the one who called

She called Tesha.
And what about Serena's strange behavior

8

after the incident.

9

avoid contact with the police.

She distanced herself, seemed to want to
She appeared more concerned

10

about the blood on her than Vilmar.

11

conjunction with the fact that she never said call 911 or

12

call the police, you must wonder whether she-really wanted

13

the police to be involved.

14

When you look-at that in

Whether there was something she didn't want

15

them to discover.

16.

that witness Jennifer Santana, Tesha's mom, received about a

17

week after the incident?

18

She remembered them being definitely from a local male.

19

could tell by the voice.

20

What about the threatening phone calls

She thought there were two calls.
She

That's not Taryn.

And she remembers that local male telling her

21

that Tesha better keep her mouth shut about this incident.

22

And that was before Taryn was in any way implicated.

23

that it didn't happen until several weeks later.

24
25

We know

There was someone else out there who was
concerned about detection, concerned about Tesha as a witness

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case 1:0^oWA
PURSU/ ) TO HRS 606AiP9?iRMISSIC

PagelD
^0 COPY DENIED
52

1

making statements.

2

Enough concern — concerned enough that he

3

was threatening a witness.

4

speaking of a local male, what did Serena tell us the man

5

said about being in the car.

6

What does that tell us?

And

Serena's testimony was — she quoted what she

7

said Taryn said, "I never know it was you guys car."

8

That's what she guoted.

9

Taryn doesn't speak pigeon,

10

Okay.

You now — you heard the tape.
Was there someone else there

that did speak like that?

11

Serena testified that she never saw Taryn

12

stab Vilmar, that much she had to admit.

13

Did Taryn ever stab Vilmar or was there someone else there

14

who at some point got his hand on that knife, someone who was

15

not pinned to the ground face down under Vilmar, someone who

16

would have been in a position to inflict those kinds of

17

wounds.

18

The question is:

And look at the physical evidence,

Taryn's

19

shirt and the gloves that he was allegedly wearing.

20

Taryn made no attempt to clean up those items.

21

them away where he thought no one would find them behind a

22

port-a-potty which was just by chance that a friend o~f

23

Vilmar's the next day had a party there on that same place.

Now,

He just threw

24

He pulled the gloves off turning them inside

25

out in the process and discarded them along with the flannel

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case 1:0£<§^0W-*M
pursu;

2fJ|p9$.<y>fL^1
) TO HRS 606.#il?9^lRMISSIC

pagelD

)fO COPY DENIED
53

1

jacket.

Here are the gloves.

Let/s look at these gloves.

2

Except for the fingerprint powder, there's nothing on these

3

gloves.

There are no blood stains on these gloves.

4

Now, if Taryn had been wearing these gloves

5

when Taryn had stabbed Vilmar Cabaccang nine times with these

6

gloves on, would you expect to find maybe not only some blood

7

but some damage.

8

you'll see that it's kind of a heat problem here.

9

of been welded itself shut on this finger, no rips.

10

And this is the only damage which is —
It's sort

I — oh, and I asked Officer Natividad who

11

recovered these gloves, and he said these are as he found

12

them except for the fingerprint powder.

13

Gapero who, then, got custody of the gloves next, and he said

14

no blood on these gloves, never was.

15

And I asked Officer

It's not like Taryn would have cleaned them

16

because he didn't bother cleaning the jacket or anything.

17

The jacket was full of blood.

18

out.

19

pull them at the wrist and pull them off and they come inside

20

out.

And he didn't turn them inside

He just pulled them as you would do with gloves.

21

Do you — you can find it out.

22

first one here.

23

is wider than one part on the other.

24

you'll see it's inside out.

25

the officer seized them.

You

Compare the

Line up the thumbs, and you'll see the wrist
If you'll line it up,

The ones in evidence are just as

Whatever blood would have been on

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case l:04^f0WW
PURSD

PagelD
} TO HRS 606^1 J0924rmisSI=

)tO COPY DENIED
54

1

them should still be on the other side.

2

There was no blood.

Hard to believe if Taryn had been the one who

3

stabbed Vilmar, with Vilmar bleeding profusely as those

4

wounds would indicate, as Dr. Manoukian testified, hard to

5

believe there wouldn't be some blood on these gloves.

6

Finally, last point, on this question of who

7

did it.

8

admitted to Lisa that he was involved in this whole thing and

9

the prosecutor would have to believe this is when Taryn was

10

Listen to Taryn's own words on the tape,

He

the telling truth.

11

He didn't know anyone was listening to this.

12

He didn't know — didn't know anyone was listening,

13

not admit to Lisa — he was — he was involved in this whole

14

thing, but he says,

15

know that for a fact."

16

He did

"I wasn't the one who stabbed him, and I

I'll place this for — it's a little hard to

17

pick up.

18

hear — you'll hear Lisa say question:

19

okay?

20

because you're the one who stabbed him and not me?

21

you'll hear Taryn's answer:

22

the one who stabbed him, and I know that for a fact.

Let me just read it for you.

What you're about to
So you think it's

So you think that I should feel more sorry for you

23

I'm not asking that,

And
I wasn't

By the way, if you use this, the left side

24

works better I found.

25

question.

Okay.

Let's listen for that

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case l:0£e^0W-®R
PURSU.

PagelD
y

TO HRS 60 6#-li993%RMISSIi

^TO COPY DENIED

55

1

(Excerpt of tape played in open court.)

2

Did you didn't pick it up?

There are

3

headphones on this you will have in the jury room so you can

4

try to hear better.

5

Okay.

Now, I may not need to go any farther with

6

you folks.

7

cover the rest of the chart.

8

Yes, there's a reasonable doubt as to who inflicted the

9

wounds, not guilty.

10

But like I say, I don't know.

I may not need to

Maybe you're right with me.

Fine, you know.

If you're- sure of that, then the rest of the

11

jury is not going to sway you, you can ignore the rest of

12

what I say, but I don't know,

We should pay attention

13

because you're to deliberate.

You're to keep an open mind

14

until the end of closing arguments and then deliberate and be

15

prepared to discuss the case fully.

16

I've got to move on, and know it's

this is

17

the hardest thing for a lawyer to do because now you're going

18

to say well, Mr. Ranken, you are contradicting yourself,

19

just told us that Taryn didn't.do it, and now you're talking

20

about well he did it, it self-defense, whatever.

21

There's no way around it, ladies and

22

gentlemen, I'm — I don't know what happened.

23

I'm leading you through the analysis that you must go

24

through, and I'm helping you see the points that restore a

25

reasonable doubt on all aspects of this case.

Like I say,

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

You

Case 1:0^S0WM
PURSU

PagelD
} TO HRS 606^i^99^RMISSIC

)to COPY DENIED
56

1

So, yes, I'm going to assume now for the sake

2

of argument that Taryn was the one who inflicted these wounds

3

despite everything I said because I have to go on and help

4

you analyze the other portions of the case, the other

5

possible defenses just in case you do get beyond that

6

question that you don't find a reasonable doubt as to who did

7

it and want to move on to the next step.

8
9
10

I don't want to leave you empty handed,

I'm

going to go through it with you and help you analyze that
next step.

11

The next step is self-defense, the question

12

of self-defense.

13

about Vilmar Cabaccang as of July 14, 1995.

14

He's a fighter who works out every day with his punching bag,

15

who spars with his friends for fun.

16

Let's look at some of the things we know
He's a boxer.

And we know that he's accustom to using

17

knives every day for four years he's been cutting meat at

18

Azeka's and then fish at Sack and Save, spending eight hours

19

a day wielding knives at work.

20

Now, the decedent, Vilmar Cabaccang, pulled a

21

knife, ladies and gentlemen.

22

drawer or the dish drainer as he ran through or —

23
24
25

He pulled a knife out of the

MS. TENGAN:

Objection, calls for

MR. RANKEN:

The only logical inference, your

speculation.

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case

Ffgpsg^fL^1
PURSU'

) TO HRS 606.^3LP^^RMISSIC

pageiD

)rO COPY DENIED

57

1

Honor.

2

THE COURT: I'll permit it.

3

MR. RANKEN:

Let's go ahead.

He pulled a knife.

He had to go

4

through the kitchen.

5

pulled the knife out of a drawer or dish drainer as he left

6

the house, easy enough, a kitchen knife, steak knife.

7

You know the layout of the house.

He

The witness says — the two witnesses thought

8

it was a steak knife.

One thought it was a larger kitchen

9

knife.

It's probably a larger steak knife,

10

I don't know.

but in any case, three witnesses said that he had a knife.

11

And Taryn saw that kitchen knife and felt

12

that kitchen knife on his flesh.

13

knife because he told Lisa.

14

knife.

• 17

He was the one who pulled the

Vilmar pulled the knife.

15
16

We know Taryn saw that

And he told that to Lisa before he had an
attorney, before he had investigators, before he knew what
these witnesses would be testifying,

And it's been

18

corroborated by the witnesses who testified, Phil Schmidt,

19

Rob Perry, Jr. and Robert Perry, Sr.

20

Let's try to reconstruct how this fight

21

happened.:

22

knives.

23

Taryn's belly four inches long and a cut across his hand, the

24

palm of his hand and fingers, Lisa Kimmey's testified as to

25

that.

The testimony was that Vilmar and Taryn both had

And that after this fight, there was a cut on

And there were much more severe wounds on Vilmar, of

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case l:0£e^0^4M
PURSU.

PagelD
) TO HRS 606.^l1?9^SrMISSIC

)tO COPY DENIED

58

1

course.

2

Taryn would wear his flannel shirt as a

3

jacket.

4

showing he wears it untucked, and Phil Schmidt says Taryn had

5

the jacket untucked just hanging loose.

6

Here's a picture of him here that's in evidence

And so Mr. Cabaccang chases and catches

7

Taryn.

And Mr. Cabaccang is a boxer, this fighter, who has

8

for years been working with knives.

9

Christian on the run on the sidewalk on the pavement of the

He tackles Taryn

10

sidewalk and possibly a little on the grass, in that area.

11

Presumably Taryn was still running on the

12

sidewalk at that time.

13

the blood evidence where exactly that blood was.

14

you why the prosecutor is incorrect when they argue that

15

their explanation for this blood on the sidewalk.

16

We'll look a little later at some of
I'll show

But anyway, Mr. Cabaccang tackles Taryn.

His

17

shirt — Taryn's shirt comes up enough to expose his belly or

18

Vilmar pushes the shirt up to get his knife hand under

19

against Taryn's flesh.

20

pavement or in the grass right next to it with this larger,

21

heavier, stronger man on top of him, on top of his back

22

pinning him down and cutting him with a knife.

23

Taryn's lying face down on the

And this is a picture of Vilmar at that

24

time.

25

this man possessed, 190 pounds according to Dr. Manoukian,

You can see the muscles.

You can see the power that

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case
PURSU

lM1
)T0 COPY DENIED

) TO HRS 606^i99?%RMISSlC

PagelD

59

1

looks like most of it is muscles.

2

In any of case, a lot heavier than Taryn,

3

stronger.

On his back and pinning him down and cutting him

4

with a knife, cutting Taryn with a knife on his belly.

5

How did he get that cut?

That's how he got

6

this cut.

7

He's never been in trouble with the law before;, and he's

8

facing apprehensions.

9

for stealing.

10

Taryn is 19 years old at this time this happened.

He's facing the shame of being caught

He's facing the shame of having to face has

11

mother and father.

12

and beyond all that, has more immediate concerns there's a

13

very heavy and very angry man on top of him with a knife

14

against Taryn's skin.

15

He is facing the fear of going to jail

Taryn is terrified, and this terrified

16

teenager, Taryn, tries to struggle free.

17

Taryn's belly with that kitchen knife.

18

and the cut was bad enough to form a four-inch scab which

19

both Lisa Kimmey and Jennifer German said they both saw on

20

Taryn at the end of July, one or two weeks later.

21

And Cabaccang cuts
He draws first blood,

So when he feels himself being attacked with

22

this knife and he gets cuts on his hand as well, which Lisa

23

Kimmey saw as well — sorry.

24
25

When he feels himself being attacked with
this knife, what does he do?

Somehow he gets a cut on his

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case l:O^M)Wil
PURSU

;^4/§@Jir^gHt14^04l8^fel7te,/l
} TO HRS 606?ii99^feRMISSI

PagelD

)TO COPY DENIED
60

1

hand.

2

that he tried to — he felt that.

3

from Vilmar or grab it to deflect it and that's how his hand

4

got cut.

5

I suggest to you that he tried to grab that knife;
He tried to get it away

The cuts, she testified, were on his right

6

hand which was allegedly the hand that Taryn ways later seen

7

holding the double-bladed knife in.

8

explanation for that cuts — what she remembers Taryn saying

9

is that Vilmar got the double-bladed knife away from him.

10

And then Taryn was foolish enough to just

And Lisa Kimmey says her

11

grab the blade of it and jerk it out by the blade of the

12

double-bladed knife.

13

Does that make any sense?

First of all, there's no evidence that Vilmar

14

ever got that knife away from Taryn.

15

had it the whole time until finally he was able to struggle

16

free and just released it of his own and left.

17

So what?

Serena says that Taryn

Lisa Kimmey is mistaken.

She maybe

18

misremembering or may have misunderstood Taryn in the first

19

place.

20

So what knife did Taryn grab?

Obviously he

21

grabbed the blade of that steak knife, kitchen knife, being

22

handled by Vilmar.

23

knife cut into flesh of his hand along with the cut he had

24

already received on his stomach.

25

And when he grabbed that, he felt the

And he became scared, ladies and gentlemen.

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case

Page ID
PURSE

> TO HRS 606.#i^99l%RMISSI

)tO COPY DENIED
61

1

He was being attacked with a knife that was cutting into his

2

flesh and causing him to bleed.

3

Christian grabbed on to Vilmar's knife, he obviously had

4

nothing in his own hand.

5

There was after that — after Taryn felt the

6

pain of his own blood being drawn, after he felt the knife

7

against his belly that he grabbed that knife only to again —

8
9

11

MS. TENGAN:

I'm going to object.

MR. RANKEN:

I'm finished with this part,

This is

speculation.

10

:•

Now, at the time Taryn

your Honor.

I think it's reasonable inferences in this case.

12

THE COURT:

13

MR. RANKEN:

Let's move on.
I submit to you it was then that

14

Taryn, the terrified teenager, took his own knife out of its

15

sheath to defend himself.

16

came along too and she was punching and kicking Taryn as hard

17

as she could to try to subdue him.

18

At some point around there Serena

And by the way, where do you suppose she got

19

the idea to punch Taryn in the head?

20

question,

21

like Vilmar.

22

his hands his friends said.

23

That's an interesting

Maybe because she saw someone else doing it too,
Vilmar was a boxer remember.

He fought with

Now, Phil Schmidt testified that Vilmar was

24

holding a kitchen knife, the steak knife, in his left hand

25

but Vilmar was right-handed.

Apparently at some point Vilmar

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case 1:04^)'0WM
PURSU

PagelD
) TO HRS 606.4'J-P9@6RMISSir

JTO COPY DENIED
62

1

put the knife in his left hand,

2

had his right hand free.

3

Why ‘would he do that?

So he

Maybe to slug Taryn to try to subdue him.

4

Remember Vilmar was mad.

5

car.

That's his baby.

6

He's caught this guy in his prized
He was mad.

He's so mad he didn't even call 911.

He just

You can't necessarily

7

ran out the door to catch this guy.

8

figure that well everything Vilmar Cabaccang did was clear

9

headed on that night.

He was mad, and he was acting — he'd

10

been trained as a boxer for a long time preparing for that

11

time when he would need to use his fists in real-life

12

situation and this was the time.

13

I suggest to you that with his free hand

14

Vilmar tried to knock Taryn unconscious -—

15

MS. TENGAN:

16

Objection, calls for

speculation.

17

THE COURT:

18

MR. RANKEN:

I'll overrule that.
And I suggest to you that he was

19

probably coming pretty close.

20

only a good boxer, Vilmar was an athletic individual, worked

21

out every day.

22

he probably succeed in at least stunning Taryn, confusing

23

him.

24
25

Testimony was that he was not

You saw the picture.

I suggest to you that

Remember Taryn was getting punched by Serena
too.

And he certainly succeed in scaring Taryn half to

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case l:0^)0Mli
F*3§0ft!fl4dPflM1 PagelD
PURSU ) TO HRS eoe.l^O^RMISSir ^TO COPY DENIED
63

Let's talk about this knife, Vilmar's knife.

1

death.

2

Prosecution has the burden of proof on the self-defense as

3

well.

4
5

f* There's three independent witnesses, that's
v
enough a to show a reasonable doubt to help you see that

6

maybe, just maybe, there was a knife in Vilmar's that he was

7

using,

a

motive to lie.

All we have to do is show a reasonable doubt.

It's the sworn testimony of three neighbors with no
Does that count for anything?
Well, maybe you think the others were

9

Two neighbors — well, it would be pretty — for

10

imagining.

11

two people to hallucinate at the same time, but three

12

neighbors, ladies and gentlemen.

13

collaborating on testimony.

14

And they weren't

I mean, Rob Perry, Sr. remembered a bigger

15

knife, and Rob Perry, Jr. remembered a smaller steak knife,

16

and they just both told you what they saw — what they

17

remembered they saw something in Vilmar's hand or right by

18

it.
Phil Schmidt saw it in Vilmar's hand or right

19
20

by and/or as if he just released it, and he saw the other

21

knife there so we know it wasn't the other knife.
Now, these were the first three people to

22

They were the ones who saw the scene

23

arrive on the scene.

24

before it had been tampered with, before anything was

25

disturbed.

They saw that knife and that's enough to raise a

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case

©4/§0i8iri^t14d^°^I^Kfel?to7l<
PURSU

) TO HRS 606 A^^RMISSP"

*l@^ltf£bPflM1 PagelD

)to COPY DENIED
64

1

reasonable possibility that maybe Taryn was defending

2

himself.

3

I use this term a "reasonable possibility." I

4

view — that's kind of the opposite of beyond a reasonable

5

doubt.

6

happened, there's a reasonable possibility that the opposite

7

happened.

B

had that knife, was using it.

If there's a reasonable doubt as to whether something

So there's a reasonable possibility that Vilmar

9

If the prosecution wants you to convict of

10

murder or manslaughter, they have to prove to you that Taryn

11

Christian was not defending himself, and they have to prove

12

that to you beyond a reasonable doubt.

13

And then I talked a little bit about

14

reasonable belief.

15

self-defense; okay?

16

force.

Let me go over the jury instruction on
Self-defense:

Justifiable use of

This is whait the judge will instruct you.

17

Justifiable use of force commonly known as

18

self-defense is a defense to the charge of murder and the

19

included offense of manslaughter.

20

prosecution to prove beyond a reasonable doubt that the force

21

used by the defendant was not justifiable.

22

prosecution does not meet its burden, then you must find the

23

defendant not guilty.

24
25

The burden is on the

If the

Now, it then defines how you make that
determination.

The. use of deadly force upon or toward

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case 1:0^0M^
PURSU

PagelD
) TO HRS 6Q6 .^t3LP9?§RMISSI(

)rO COPY DENIED

65

1

another person is justified when a person using such force

2

reasonably believes that deadly force is immediately

3

necessary to protect himself on the present occasion against

4

death or against serious bodily injury.
The reasonableness of the defendant's belief

5
6

that the use of such protected force was necessary shall be

7

determined from the viewpoint of a reasonable person in the

8

defendant's position under the circumstances.

9

Let me read that last part again:

Shall

10

be — the reasonableness of his belief is to be determined

11

from the view point of a reasonable person in the defendant's

12

position under the circumstances of which the defendant is

13

aware, or as the defendant reasonably believed the

14

circumstances to be.

15

So again this is just — all this is saying,

16

as I mentioned before, put yourself in his shoes,

17

stand back and then say — well, from my point of view —

18

well, it doesn't reasonably look like, you know, that was the

19

way it was happening.

20

Don't

But put yourself in his position of being

21

assaulted by two people with a heavy man on top of him

22

angrily doing whatever he was doing and this woman kicking

23

and punching him.

24

his flesh.

25

Being yelled at and feeling this knife on

Put yourself in his position and that's how

Melissa D. Robertson, RPR, CSR 376
Official Court.Reporter
State of Hawaii

Case 1:0^0WWPURSU

§4/g@i9n1&it14^^404f8tl^l<fer7to/K
) TO HRS 606?ii?9i%RMISSI'

PagelD

)rO COPY DENIED
66

1

you determine whether he had any reasonable belief that he

2

might need to protect himself with his own knife.
The prosecution read to you another part of

3
4

this that I think you may have to discuss because I'm afraid

5

this can be a little misleading.

6

deadly force is not justifiable if the defendant, with intent

7

of causing death or serious bodily injury, provoked the use

8

of force against himself in the same encounter.

It reads:

The use of

Now, what did you understand that to mean?

9
10

Can't use self-defense if you've provoked the other person to

11

use force against you.

12

says you can't use self-defense if you've provoked that

13

person with the intent of causing death or serious bodily

14

inj ury.

That's not all it means, though.

It

15

At the time Taryn was in the car, if he was

16

in car — at the time he was running away, he was not doing

17

anything with the intent of causing death or serious bodily

18

injury.

19

carefully in the jury room if you get confused on this.

20

It's simply not applicable because they

This is simply not applicable.

You can read it

21

cannot show that Taryn prompted Vilmar to use force by doing

22

something to injure — to seriously injure Vilmar.

23

only later that Taryn seriously injured Vilmar.

24
25

It was

Also it says you can't use self-defense if
the defendant knows he can avoid the necessity of using

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case 1:04^S0^W.

*gpei3M#flM1

PagelD

\/'O COPY DENIED

PURSUE ) TO HRS 606 A^^RMISSIC

67

1

self-defense by with complete safety by retreating.
Well, he tried to run.

2
3

this doesn't apply.

4

it.

He tried to run, so

He didn't make it away.

He didn't make

He was tackled.
And it's not — it doesn't have — have

5
6

anything to do with this case whether or not he dropped a

7

knife and stopped to pick it up.

8

to get away.

9

this case.

Because he was still trying

I mean, that does not have anything to do with

It's only because you'll see that at that

10
11

point he intended no harm to Vilmar.

And then finally the

12

prosecution argued their very strained interpretation that if

13

the defendant — you can't use self-defense if the defendant

14

knows he can avoid the necessity of using force which

15

complying the demand to abstain from any action which he has

16

no duty to take.
Now, somehow they want you to find that not

17
18

letting go of the knife was abstaining from some action.

19

Abstaining from an action is when you don't do something in

20

the first place.

21

drop a knife.

22

It's not complying with an order that you

Besides at that point did he know that he was

23

safe?

No.

There was a knife on him too.

Okay.

24

Self-defense — a couple more points on self-defense and then

25

we can move on here.■

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case l:0£@£%'Cf

PagelD
68

1

Be the way, even without that knife, even

2

without Vilmar having the knife, suppose that he hadn't had a

3

knife.

4

did, but even if he hadn't, I submit to you there was enough

5

there for Taryn to reasonably believe that he was in danger

6

of serious bodily injury, being punched and kicked with a

7

heavy man on top of him and another person attacking him from

8

the side, angry people assaulting him.

9

ungloved fist and a well-placed kick can cause serious

10

I think we proved there's reasonable doubt that he

And we know that an

injuries.

11

Actually I'm not at all done with

12

self-defense.

13

key piece of physical evidence in this case.

I haven't talked yet about what I view as the

14

A lot of times — there is lots of times in a

15

case there's one piece of physical evidence that holds

16

secrets that do not come out in the testimony of the

17

witnesses.

18

In this case I think there's a very,

19

significant piece of physical evidence that I want to look: at

20

with you.

21

that night.

22

of course, Vilmar's blood.

23

at and to contemplate but the significance of this — let me

24

explain to you.

25

And that is this:

This shirt Taryn Christian wore

The shirt that is drenched in blood.

And it is,

And which is not pleasant to look

The question is: . Where is the blood on this

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

PagelD
69

I'm — and I'm going to hold it back facing you.

1

shirt?

2

Where is the blood on this shirt?

3

almost exclusively on the back and mostly on the left side of

4

the back.

The blood on this shirt is

Look at the front of the shirt.
JoAnne Furuya said she couldn't find anything

5
6

on the right side that would indicate any blood.

7

test the left side because she wasn't — I mean, you can see

8

yourself the right side is clean in front,

9

the left side because she wasn't sure if some stuff here was

10
11

She didn't

She didn't test

blood or not.
But the blood on this shirt is almost

12

exclusively on the back, and then it wraps around some to the

13

left side of the shirt, the armpit area and on down.

14

Now, what does that mean?

What does that

15

mean for our case?

16

as Serena Seidel testified, Vilmar did tackle Christian, and

17

while all this was happening, Taryn Christian was lying face

18

down on the ground with Vilmar on top of him.

19

I submit to you what this shows that just

Because look at the locations of the wounds.

20

Vilmar had wounds in his chest area, and he had an especially

21

large wound that was bleeding especially profusely in the

22

left armpit because that's the one that Dr. Manoukian

23

testified punctured a vein and resulted, in his words, in

24

massive blood loss.

25

So to that extent, this shirt shows us the

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case
HO COPY DENIED

PagelD

70

1

positions of the parties after — after Vilmar was — had

2

sustained his serious injuries.

3

Vilmar was on Taryn's back that whole time when he was

4

bleeding.

5

And what this shows is that

He was on Taryn's back.
He was on Taryn's back.

He was not facing

6

Taryn.

7

facing the same direction.

8

see where the armpit wound spilled blood on Taryn's left side

9

right under Vilmar's left side.

10

And it shows that they were

Because the left side that's —

Okay.

You can picture it.

11

of each other both face down.

12

and the grass.

13

get stabbed?

Taryn's face was in the dirt

Vilmar on top of him.

14

Two people lying on top

So then how did Vilmar

The way Vilmar got stabbed is obviously Taryn

15

from that position, if Taryn was the one who did it, managed

16

to get up his knife without seeing what he was doing, just

17

thrust blindly behind him and up at where Vilmar was sitting

18

on him and perhaps not laying completely on him but leaning

19

over him.
And the wounds were directed upward.

20

That's

21

one thing Dr. Manoukian said.

22

all directed upward and Dr. Manoukian, by the way, he's not a

23

forensic expert.

24

what happened.

25

Of all the wounds, they were

He's not — he can't reconstruct for you

He didn't see the shirt.

He didn't know

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case

ro HRS 606 iift3/)C0ERMISSIrl

%$¥ill'£2c$h.W PagelD

I<j COPY DENIED

71

All

he's a

1

anything about the positions of the parties.

2

physician.

3

way the knife entered the body so — what he told us is that

4

the wounds pointed upwards, same kind from the sides more —

5

some came from one side or the other, but they were basically

6

all going upwards and this is explained by those positions of

7

those people that I just described to you, which is

8

corroborated by the location of the blood on that flannel

9

shirt.

He can tell us which way the wounds point, which

If Taryn was ever facing Vilmar — if Taryn

10
11

was ever facing Vilmar, then there would have been blood

12

here.

13

left armpit that was bleeding so heavy.

Because that would have corresponded with Vilmar's

Or if he'd had blood on front of his shirt

14
15

from Vilmar's chest wounds, there is no blood at all in this

16

area on the right side.

17

Vilmar.

18

know what he was doing.

Therefore, Taryn was not facing

And, therefore, he was a least reckless and didn't

And it looks like he was acting in

19
20

self-defense, never really realizing the harm that he was —

21

would be inflicting because he could not see the harm he was

22

inflicting.

23

He did not see where that knife was landing.

24

He was lying face down on the ground trying to get this guy

25

off him with the only means he had> trying to stop himself

Melissa D. Robertson, RPR, 'CSR 376
Official Court Reporter
State of Hawaii

Case 1:0
TO HRS

tO COPY DENIED

PagelD

72

1

from being hurt with the only means he had, which was that

2

knife.

3

behind his own back.

Blindly, without being able to see, just stabbing

At some point he probably got twisted around

4
5

enough that he inflicted a glancing side wards blow on the

6

back, which Dr. Manoukian testified went in left to right oh

7

Vilmar to maybe — probably what happened, I would suggest,

8

is either that was Taryn inflict that wound, either got the

9

knife in his left hand and stabbed.
Or more likely-managed to twist around some

10
11

and reach behind him still not — how could he know were

12

exactly it was landing?

13

The prosecution's whole case that says this

14

wasn't self-defense, that's based on well his injuries were

15

so severe and he didn't need to stab him that many times, but

16

if Taryn was lying face down underneath Vilmar, then how

17

could he really know whether he was connecting or the damage

18

he was doing?
The interesting thing is that Vilmar didn't

19
20

get up off him.

21

still lying face down on the ground here, and still had this

22

guy on top of him who was not being defeated or budged and

23

not letting go.
So what could a man. in Taryn's position

24
25

I mean, Taryn was still being assaulted

think?

What could this terrified teenager think as he

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case

F^getl^tMl PagelD
PURST V .' TO HRS 606#lJQ94>£RMISSI (

TO COPY DENIED
73

1

connected?

There's no evidence that Taryn had any experience

2

using a knife, unlike Vilmar.

3

affect, would know the feel.

4

Or that he would know the

He got this for show.

He got it for

5

protection, yes, because he'd been mugged.

6

something he showed off, an insecure, scrawny teenager that

7

would show this off to his friends, feel little more manly,

8

perhaps, but he didn't know how to use it.

9

And it's

He didn't know.

Dr. Manoukian told you — Dr. Manoukian told

10

you it didn't make much force to use this knife.

11

like it — a weaker person could have definitely inflicted

12

these wound against a stronger person.

13

It's not

It's sharp.

And further proof that Taryn was face down.

14

If you're running away from someone and they tackle you, what

15

position do you end up in?

16

tackles you from behind, you just sprawl forward and they are

• 17

If you're running, someone

on top of you.

18

Now, the interesting thing about Serena

19

Seidel's testimony she said she told you folks that she

20

stopped at Tesha Santana's on the way.

21

Taryn get tackled but she assumed that's what had just

22

happened from the look of it.

So she didn't see

23

But that's not corroborated.

24

says there's only one time that Serena came to her door and

25

pounded on the door and that was after it was all over when

Tesha Santana

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

^4/g8l9n^^t14^04|8^feiteL'

, TO HRS 606#LiP93>8RMISSI'(.

PagelD

TO COPY DENIED
74

1

she came for water.
And Serena Seidel admitted under

2
3

cross-examination that she had made a different statement to

4

the police.

5

fresh, she had stated that she saw Vilmar tackle.

6

Vilmar catch up with Taryn, and she saw Vilmar tackle Taryn

7

when her memory was fresh.

She saw

There was no confrontation on the sidewalk

8
9

That she previously — when her memory was

with Taryn turning and fighting.

Taryn7s was running.

He

10

was out of there.

He was tackled and Serena saw it, and

11

that' s what she said at first when he remembered what she

12

saw.
She didn't go — Serena — I mean, she didn't

13
14

go by Tesha's on the way.

15

saw what happened.

16

up face down.

17

in the struggle, Vilmar was getting the best of Taryn.

18

had the knife, and Taryn defended himself.

And there was a struggle.

Just a minute.

And at some point
Taryn

I covered a lot of

20

this already.

21

knife, it's true there was no second knife found at the

22

scene.

23

She

He was tackled, and that's how he ended

Okay.

19

She went to Tesha's later.

By the way, about the knife again, Vilmar's

Does that really mean anything?
As far as we know, ladies and gentlemen, the

24

police never did a thorough search of the area.

25

up the evidence that was in view.

They picked

So what happened to that

!
Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

PagelD
X* TO HRS 606#lip9#tRMISSI'V

TO COPY DENIED
75

1

other knife?

There's several possibilities.
Could have been kicked in that bush nearby.

2
3

It could have been lost in the scuffle somehow.

4

could have picked it up.

5

could have been even intentionally concealed.

Someone

Or what could have happened is it

And I would suggest that there was someone

6
7

there with a motive to intentionally conceal that knife.

8

There was a knife that belonged to Serena Seidel that came

9

from her kitchen.

10

Why would she take away that second

knife?
Other than the fact that it belonged to her,

11
12

perhaps she took away because she realize that knife would be

13

evidence against her boyfriend, Vilmar.

14

away because she didn't want Vilmar to be implicated in any

15

way as being in the wrong in this fight.

16

Perhaps she took it

Perhaps she took it away because she just

17

wanted to see the man who stabbed Vilmar convicted and knew

18

that the other knife would show self-defense.

19

piece of evidence about this knife.

Interesting

These are the shorts that Serena Seidel was

20
21

wearing.

This is the back of those shorts.

These are in

22

evidence.

23

had blood on her shins and on her knees from kneeling next to

24

Vilmar when he was touching or and kissing his crotch area,

25

why ever she did that, but according to her witnesses, she

And this is the front of those shorts.

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Now, she

Case 1:0

£§momrn§

'^4«040rrliht14««P4ft,

PURSf V. ^;

L

TO HRS

fig&LWdtfLffl PagelD
TO COPY DENIED

76

1

had no other contact with Vilmar other than that after this

2

incident.

3

Nothing that could explain this dense blood

4

spot right on the front of her shorts where there's clean

5

lines.

6

like someone bunched up this material, took a knife and ran

7

it through that material.

You know what this looks?

8
9

MS. TENGAN:
Honor.

I suggest to you it looks

I'm going to object, your

This is speculation.

10

THE COURT:

11

MS. TENGAN:

Improper.

12

MR. RANKEN:

Well, I suggest to you, ladies

Sustained.

13

and gentlemen, that there's no other explanation for that,

14

and you should consider that evidence.

15

determine what happened to the knife.

16

But you don't need to

We have witnesses that said there was a knife

17

there.

18

that knife.

Let it remain a mystery if you like what happened to

19

Now, Phil Schmidt said that when he first saw

20

Serena, she did not have — he didn't see any blood on her

21

shorts and yet she has the blood on her shorts.

22

for what it's worth too.

23

Take that

You know, it makes sense that Vilmar —

24

that — I'm trying to explain the keys and tie that in with

25

the knife here.

Now, there's two explanation.

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

One, that I

■

Case 1:0

ffgperi^y&i PagelD
xO COPY DENIED
77

1

covered the idea that there's a third man that had those

2

keys.

3

But if you don't believe that, then obviously

4

it was Vilmar who got those keys and brought them to the

5

scene.

6

"Why did you give him the keys?"

7

those keys.

8

them on the way out, wasn't thinking really clearly.

9

If you think Tesha imagined that he said that about,
Well, Serena didn't bring

It was obviously Vilmar.

He stopped to grab

Why would he need — but he did stop to grab

10

something else he needed, a knife,

11

thing, why not two things.

12

If he stopped to grab one

And remember now Phil Schmidt and both of the

13

Perrys and Tesha all testified that Serena was behaving

14

strangely at the scene once the police arrived,

15

she distanced herself seeming to avoid contact with the

16

police.

17

Remember how

How she's worried about the blood, how she

18

pulled Tesha away from Vilmar.

19

strange behavior?

20

traumatic incident that she witnessed, or was she also trying

21

to conceal something, not being fully honest with the police,

22

not really wanting to talk to them about all the details

23

because she had a hand in concealing this other knife?

24
25

What accounts for that all

Was she just upset because of the

The bottom line is three witnesses,
independent, saw a second knife, and that's enough to create

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case

PagelD

PURS' V ^ TO HRS 6O6^i09!i>tRMISSJ'\

TO COPY DENIED
78

l

a reasonable doubt.

2

Now, even after Mr. Cabaccang had been badly

3

injured, he was still struggling on as though he had not been

4

injured.

5

this was very important to look at for self-defense because

6

from the blood on the back of Taryn's shirt, it's obvious

7

that Vilmar had not been slowed down by whatever wounds may

8

have been initially been inflicted.

9

His adrenaline no doubt kicked in big time.

But

He didn't even notice most of his wounds, you

10

know.

11

the back with the screwdriver.

12

that he had been wounded that badly, and he fought on.

13

didn't know that Vilmar had been wounded that badly,

14

fought on.

He told Officer Holokai only that he'd been stabbed in

15

Vilmar didn't even notice
Taryn
Taryn

This whole thing happened, by the way, at

16

very close quarters between these two men.

17

harder — for one thing Dr. Manoukian did notice the tail end

18

wound, and I suggested to him, and he agreed it was possible

19

that it was administered in very close quarters.

20

And that makes it

And when you're in that kind of situation,

21

you don't have control,

22

with someone — two people standing up.

23

It's two men lying on the ground, scuffling, Taryn getting in

24

whatever he can do to try to end this, to try to protect

25

himself.

It's not like Miss Tengan showed
It's not like that.

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

X \J

COPY DENIED

PagelD

79

And that accounts for the tail off to the

1

That accounts for that

2

right side of Vilmar's chest,

3

would be explained by Taryn reaching behind and getting the

4

knife from very much at angle at close quarters.
She says he must have known that he was

5
6

administering fatal blows that would kill Vilmar.

7

he know that face down with Vilmar still fighting him as if

8

nothing had happened and holding him down the whole time?
What this was, was a fight.

9

How could

And witnesses

10

referred to it that way.

Two people, Vilmar Cabaccang and

11

Serena Seidel were trying to get the best of a third person,

12

Taryn Christian, and they were basically succeeding.
Vilmar Cabaccang was on top of the whole

13
14

time.

15

to him to subdue that man underneath him including a sharp

16

kitchen knife, and he was hurting the man underneath him and

17

he has a scar to show for it.

He was in control.

He was using all means available

And man on the bottom fought back and that's

18
19

how it happened.

20

kicks and a knife.

21

individual, fought back with all he had, a knife — the knife

22

he had bought to protect himself because he was just a

23

scrawny teenager who felt insecure.

24

had done was show off to his friends.

25

One side Vilmar and Serena was using fist
The other side, a much lighter and weaker

A knife that all he ever

I put to you, ladies and gentlemen, is that

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case 1:0^0MM
PURSI v

{%$PlWdPflW PagelD
TO HRS 606 M3LP9S8RMISSI<\ TO COPY DENIED
80

1

consistent with your notion of murder, or is that more

2

consistent with your motion of self-defense?

3

Let/s go back to the flow chart and move on

4

to the next step of the analysis.

5

self-defense.

6

reasonably believed to protect himself, not guilty.

7

I just discussed

If you find that self-protection that, Taryn

If you find there's — if you find there's no

8

reasonable doubt, no possible — no reason — possibility of

9

self-protection and vote no of self-defense beyond a

10

reasonable doubt, then move on to the next step.

11

And that is what was Taryn's state of mind.

12

Again if this was Taryn who did it, what was his state of

13

mind at the time?

14

you.

15

Well, there's three choices I've offered

The prosecutor has to prove intentional or

16

knowing beyond a reasonable doubt,

17

have proven at least reckless again beyond a reasonable

18

doubt, they have proven the act of recklessly, then it's

19

manslaughter, and if you find some other state of mind, then

20

it's a not guilty verdict.

21

If you find that they

So let's talk about manslaughter.

Again X

22

hope that you'll agree with me as to one of the first two

23

theories.

24

doubt, Taryn did the stabbing. Or if they have, they haven't
<
shown beyond a reasonable doubt he didn't act in

25

Either they haven't shown beyond a reasonable

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case 1:0^0^11
PURST \

i

PagelD
TO COPY DENIED

x’

81

1

self-defense.
I hope you agree with that, but in the case

2
3

you don't agree with that, I have to allow for that

4

possibility and discuss other hurdles.

5

What was the state of mind and again, I was — sort of assume

6

for purposes of argument that we're beyond that questions.

7

We're talking about the state of mind that
Okay.

The state of mind.

8

Taryn was in.

State of mind required for a person to

9

be guilty of murder is intend or knowledge.

In other words,

10

you must intend or knowingly cause the death of another

11

person.

12

really intending to or without knowing what you're doing will

13

cause that death, then you're not guilty of murder.

14

What was Taryn's intent that night?

If you cause the death of another person without

What did he intend to happen.

What did

15

he want?

Well, we know the

16

answer to that.

17

Taryn ever wanted was to get away safe and sound and unhurt.

18

All Taryn ever wanted was to get out of this terrible trouble

19

that he was in.

All Taryn ever wanted to get was — all

All Taryn ever wanted was to go home.

20

That was his intent.

21

Taryn never intended to kill anyone.

22

killed anyone.

23

or any time.

24

break free.

25

out.

That was his intent.
Taryn never knowingly

Taryn never wanted to kill anyone that night
He tried to run.

He was pinned down.

He was tackled.

He tried to

He tried to go home and get

He was punched and kicked and cut with a knife.

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case l:0A^'c«KgJM

PagelD

\

^

^09§§

v

NXED
82

1

Taryn didn't want this fight to happen,

He

2

didn't intend this fight to happen, and he didn't intend for

3

Vilmar to end up dead.

4

Remember what Taryn Christian said to Serena

5

as he left the scene when finally got up and saw for the

6

first time how badly Vilmar was wounded?

7

need to get help, to call 911.

8

He spoke of the

There was no evidence whether he followed

9

through or, in fact — I believe her testimony is unclear as

-10

to — as I recall it, she was not clear as to if he said I'm

11

going to do it or she said something about calling 911.

12

said her attention was not focused on him at that point.

She

13

In any case, whatever he said, it was

14

something about calling — getting help, calling 911.

15

was what came out of his heart, came out of his mouth at that

16

time when he didn't think he was going to be discovered or,

17

you know, implicated in this.

18

He wasn't running away.

That

Is that a thought

19

consistent with the thought of someone who wanted or intended

20

to kill someone?

21

intended to — for Vilmar to die, why would he even think of

22

the concept of getting help or calling 911?

23

Of course not, of course not.

If Taryn

A lot of the points I made in regard to

24

self-defense are also applicable if you reject self-defense

25

and move on to considering manslaughter.

And you'll just —

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case 1:0

J.O COPY DENIED

PagelD

83
C

I think I've

1

I'm not going to reiterate or repeat things,

2

done enough repeating of myself already here, and these ideas

3

are in your mind.
Consider them, but please do think of all

4
5

these points and you are — when you are evaluating Taryn's

6

state of mind, think of these experiences of him being —

7

lying down on ground not being able to see behind him, being

8

beaten by others, and his state of mind whether he was trying

9

to act intentionally or recklessly and also how it affected

10

his emotional state.
He must have thought, you know — as to his

11
12

state of mind, he must of have thought he had not hurt Vilmar

13

enough for Vilmar to even release him.

14

didn't.

15

when he talked to Lisa, how could I have inflicted those kind

16

of wounds?

17

happen like that.

Because Vilmar

Taryn must have thought — when he read the paper,

Maybe that's why he said on those tape it didn't

And if you feel Taryn was one — when he

18
19

stabbed — when he was being honest with Lisa that why does

20

he say, I didn't stab him.

21

have inflicted those wounds?

22

happening.

Maybe he feels like how could I
I didn't know that was

It was reckless.

23
24

At best not intentional.

25

that.

At best it was reckless.

He didn't know that he was doing

He didn't know that he was inflicting wounds that

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case 1:0

PagelD

84

l

would cause someone's death.

2

prove, not only that he knew he was inflicting wounds — that

3

he was inflicting wounds, they have to prove beyond a

4

reasonable doubt Taryn was knowingly not inflicting wounds

5

that he knew were likely to cause death,

6

proved that damage.

7

And that's what we have to

They have not

Let's consider the other kind of

8

manslaughter.

9

extreme emotional disturbance.

And that is called manslaughter based on
If you find that despite

10

everything I said so far, you're still with the prosecution

11

all the way and think he did it intentionally, beyond a

12

reasonable doubt, wanted to kill Vilmar, then you have to

13

consider was Taryn at that time under the influence of

14

extreme emotional disturbance for which there is reasonable

15

explanation.

16

If you find no — beyond a reasonable doubt,

17

you can say no, then and only thing, can you finally get to

18

that point.

19

reasonable possibility that he was under the influence of

20

extreme emotional disturbance, then your verdict is

21

manslaughter.

22

If you find possibly that there's at least a

Emotional disturbance manslaughter can be

23

what's known as imperfect self-defense.

24

you feel that this — that Taryn used this force in

25

self-defense, but a reasonable person would not have believed

That could apply if

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case

PagelD

85

1

that he had to do so under the circumstances that it was

2

unreasonable for him to use that much force.

3

And that he knew he was intentionally,

4

knowingly administering — administering fatal wounds, but he

5

was doing it thinking — well, he was thinking he was

6

defending himself whether or not that/s reasonable, that can

7

create that state of extreme emotional disturbance in his

8

mind.

9

That's all you have to look at, and in his

10

mind if you find he was so disturbed by all the

11

circumstances, then it's manslaughter.

12

If you — just a minute.

Let me start over

13

here.

14

assaulted by two people, not one but two.

15

teenager facing all these — well, facing physical harm most

16

of all, facing the possibly of serious injury, facing

17

apprehension and arrest and a jail sentence, criminal record,

18

the same that would come with that, facing embarrassment,

19

really destruction of his life as he knew it was all flashing

20

before his life in that instant being apprehend and attacked

21

in that way.

22

I want you to again remember that Taryn was being
He was a terrified

How could he help but be under the influence

23

of extreme emotional disturbance in that situation?

24

yourself back in teenaged years.

25

grown-up-used-to-the-world, you know, of-hard-knocks and

Put

Don't think with your

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case l:0£@WCigjjigflp

fc.

PagelD
86

We're talking about a terrified teenager who moved out

1

all.

2

of his home just a few months before for the first time.

3

Who had never been in this kind of trouble or

4

any kind of trouble with the law before,

5

the ground with the mercy of these people. ' How could he not

6

be extremely disturbed in that situation?

7

terrified teenager in trouble, and he was frightened.

8

emotionally very upset, and he was emotionally disturbed.

9

Lying face down on

Taryn was a
He was

And that is — that must led you to reject

10

the murder verdict and at best under those circumstances you

11

can find manslaughter if the prosecution has proven

12

everything else beyond a reasonable doubt.

13

The prosecution would have you believe that

14

Taryn murdered Vilmar Cabaccang knowingly, intentionally in

15

cold blood.- They need to prove that to convict him of

16

murder, and they are arguing it.

17

they want this murder, but the evidence has not revealed

18

that.

19

best, and you cannot speculate when it's a matter of proving

20

beyond a reasonable doubt.

21

-They need to prove that if

That's not what the evidence has shown.

Speculate at

If Taryn caused the death of the decedent —

22

if he did, he didn't do it knowingly or intentionally.

At

23

the time this happened his blood was not running cold as in

24

cold blooded murder.

25

and in an extreme emotional state.

His blood was rubbing hot and disturbed

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case

^94/(

PagelD

87
!

1

You have to be unanimous in whatever verdict

2

you reach.

3

intentionally or knowingly kill Vilmar, but did so only

4

recklessly, then you can't convict of murder.

If any one of you believes that Taryn did not

5

If any one of you, perhaps another one of you

6

believes that he was acting under extreme emotional

7

disturbance, then you can't convict of murder.

8
9

You have to be unanimous in any verdict,
have to all agree on the theory of manslaughter.

You

If you

10

can't agree on the single theory of manslaughter, then you

11

have to acquit,

12

that's clear.

You didn't resort back to murder.

I hope

The instructions should make that clear.

13

Now, I'm not asking —: ladies and gentlemen,

14

I am not asking you for a manslaughter verdict in this case.

15

We've shown you that the facts of this case and reasonable

16

inferences that can be drawn from those facts support an

17

acquittal not a manslaughter verdict.

)

18

We've shown that you — if Taryn Christian

19

was one — even if you believe he was the one that inflicted

20

wounds and there was no- third man who might have done it,

21

then even there's a reasonable possibility that he did so in

22

self-defense; therefore, there's a reasonable doubt.

23

Therefore, he should be acquitted of murder and manslaughter.

24

One reasonable doubt and you cannot convict,

25

doubt and you must acquit.

One reasonable

»

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

PagelD

TO HRS 606
88

1

I'm going to respond now — it's kind of the

2

end of the organized part of my argument so forgive me.

3

want to respond now to some of the points the prosecutor made

4

to from my various notes here.

5

I

Miss Tengan says that Mr. Cabaccang was

6

stabbed nine times.

7

the left hand.

8

didn't even put a picture in evidence it was so immaterial

9

so — Dr. Manoukian couldn't identified that as being a wound

10

That's fudging.

One was a scratch on

He didn't even — for the pictures they

from the double-bladed knife.

11

I anticipate Ms. Tengan will say how could

12

Vilmar have had anything in his hands because he got cuts on

13

his both of his hands.

14

right hand.

15

the one he was using to do something to Taryn.

The truth is he got that cut on his

The knife was in his left hand.

16

Right hand was

And one was a glancing, extremely shallow cut

17

on the side of his wrist.

18

extremely shallow just along the surface and one was two —

19

like pin pricks on the hand.

20

wounds is all.

21

It was about an inch long but

So now we're down to six real

She talked about Vilmar's identification

22

allegedly of Taryn as he left.

23

that.

24

anything.

25

don't know how bad he really needed contacts, what he could

Two things curious about

One she also made a point that Vilmar Couldn't see
We don't know how bad his vision really was.

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

she

«

Case

W**,
Wl®1 PagelD
\
89

1

or couldn't see without the contacts.

2

And secondly when Phil Schmidt looked up, he

3

couldn't see that man right after at the — very carefully

4

over Phil Schmidt on the stand.

5

Phil Schmidt looked up again, but he couldn't see anything.

6

As soon as Vilmar said that,

So whether Vilmar saw anything again that

7

doesn't prove that Taryn was the only person there.

8

Vilmar was even able to identify anyone at that point from

9

that distance if he was still in view of whatever.

10

If

Again, I'm sorry, I'm kind of random

11

disorganized points here in order that she talked about them,

12

but she mentioned Dr. Manoukian talked about the that arm —

13

armpit wound and how that would immediately disable the arm.

14

Well, I asked him.

He based that on certain

15

nerves being cut, and I asked him he said no he couldn't find

16

those nerves.

17

whether or not that they had been cut.

18

He didn't see those nerves, couldn't tell

So it's not true that he necessarily would

19

have been disabled by that wound to the armpit,

20

we know that he was still right on top of Taryn after

21

receiving that wound to the armpit, still not letting Taryn

22

go.

23

How disabled could he have been?

In any case,

Because the

24

blood came all over the left side of the Taryn's shirt as

25

Taryn was pinned face down on the ground.

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case 1:0£&R>0:

PagelD
90

She said — Ms. Tengan said that this was not

1
2

reckless because — I wrote down her words.

3

interesting.

4

was not reckless.

5

shows.

This is very

She said, "Reckless is random thrusting."

This

I submit to you that's what the evidence

Random thrusting face down while Taryn was on

6
7

the ground.

8

at best.

She's admitted that it is no more than reckless

She argued about blood drops on the sidewalk

9
10

and what that means.

11

that point.

12

find.

13

the blood drops on the sidewalk, but look at where the blood

14

is on the grass.

Let's look at little more closely at

Hears a picture.

This is the best one I can

I'll show it to you as closely as I can.

These are

It comes right up to the edge here.

15

A lot of

16

blood, such as to stain the grass,

It comes right up to the

17

edge right by the sidewalk.

18

The scuffle — the fight was occurring all over this area.

19

There was one continuous area of blood all

These are not isolated drops.

20

around there leading right to the sidewalk,

21

proof look at where the items were that were found before

22

they were again photographed by the police before they had

23

been disturbed.

24
25

And further

Again the blood coming right up next to
sidewalk.

These pieces of clothing which were given to

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case 1:0'

JO

PagelD

p
91

1

Vilmar to keep him warm and were left there presumably right

2

where he was lying, so he went up right by that sidewalk.
The hat was actually partly on the sidewalk

3
4

indicating the scuffle happened right by that sidewalk,

5

how did drops of blood get on the sidewalk,

6

sinister about that,

7

confronted and stabbed him.

8
9
10

So

It's nothing

It does not mean Taryn turned and

What it means is that Vilmar was moving
around in that entire area.

The scuffle was happening in

that entire area right up to the edge of the walk.
And remember finally what Phil Schmidt said;

11
12

Phil Schmidt told you that Vilmar was trying to get up.

13

Vilmar was moving around and getting up.

14

show Phil to look at Taryn — and then — the man he saw

15

fleeing,

16

move and Phil had to stop him.

That

First he got up to

And then he got up and was moving around trying to

17

What does that mean?

That means he had an

18

opportunity to drop blood on the sidewalk,

19

nothing more than that means about that blood,

Take me

20

minute to make sure I covered all these points.

Just a

21

second.

22

There

there's

Serena testified, you know, that they were

23

always on the ground the whole time,

24

two men were standing,

25

even kneeling.

She never said that the

She never said that the two men were

She said they were on the ground and Vilmar

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case 1:O£@$“0C(

PagelD
92

1

was on top of Taryn, and she never saw Taryn on top of

2

Vilmar.

3

could testify to.

She never saw them in any other position that she

4

Phil Schmidt and also one of the paramedics

5

testified that the decedent's legs were on the sidewalk

6

partially.

7

the sidewalk.

8

witnesses, the eyewitnesses, neighbor, who said they we were

9

on the sidewalk partially.

10

The paramedic thought they we were possibly on
I believe it was Phil Schmidt, one of the

So if he sits up trying to move about,

11

naturally that could drip blood on the sidewalk.

12

Richardson.

They talked about Paul Richardson that's

13

ridiculous.

First of all, the judge has instructed you —

14

and again reaffirmed you cannot use that alleged statement

15

that Taryn said to Paul as any evidence that was admitted.

16

Paul

Only so you could evaluate whether Paul"

17

Richardson was beihg honest with you but.

18

circumstances since she raised this, which I objected to as

19

improper, but she raised this I have to talk about it a

20

little bit.

21

MS. TENGAN:

Your Honor, I'm go to object

22

since I was not permitted to go into that.

23

THE COURT:

24

MR. RANKEN:

25

Look at the

Yes.
I think it's prejudicial, your

Honor, because she had it up on chart.

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case

,->§8i^8£$g1 PagelD

V

93

THE COURT:

1
2

All right.

If you want to argue,

come up here.

3

MR. RANKEN:

Never mind because they are not

4

allowed to consider it.

5

months, shared a cell for four months or so, and Taryn never

6

said anything.

7

said anything to incriminate himself.

8
9

But they shared a cell for four

And Paul Richardson testified Taryn never

So I'm so sure that he's going to then when
they see each other in passing suddenly give Paul a

10

confession.

What happened there was — Paul admitted — was

11

that Paul was back in jail looking at jail time.

12

what the police were after and he went and gave them what

13

they were after to try to get a break for himself.

14

work.

He knew

It didn't

He decided to be honest when he came to court.

15

I I'm not going to spend a lot of time

16

attacking Lisa Kimmey.

17

on that.

18

have to look at in terms of evaluating the testimony.

19

Piatkowski shared her experience of what happens when Lisa

20

Kimmey gets jealous even without good cause.

21

reaction can be.

22

You have to draw your own conclusions

She was — there were a few things we know that we
Donna

How severe her

And we know from the tape that Taryn was

23

having a relationship with another girl and was trying to

24

break up with Lisa at the time she went to the police at the

25

time she told them all the things she said that Taryn said.

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case 1:0

iO

PagelD

PORS

v

94

1

Her friend Megan admits that she can't be

2

trusted.

Before she was even 18 she been adjudicated guilty

3

of theft, a crime involving dishonesty.

4

person as you heard that lead Taryn along in the taped phone

5

call lying to him right and left.

6

secret, just leading him on, feeding him these questions just

7

to entrap him and do with it a straight face and be

8

credible.

Okay.

She's the kind of

I am keeping your

9

The way she behaved on the stand she clearly

10

showed what side she's on. in this case, and it's not Taryn's

11

side.

12

she doesn't tell you.

13

you know.

14

honey, stay with me.

15

a lifetime guaranty on our relationship.

So take it with a grain of salt what she says and what

16

She gave Taryn a lifetime guaranty,

She told him in this letter all you have to do is,
Because if you ever leave me, I can put

She's enforcing the guaranty now.

Is she

17

leaving out the other stuff that he told her?

18

too much on the tape about the details.

19

thing he already talked to Lisa.

20

seem to want to talk much about the details of it anyway,

21

uncomfortable for him.

22

He didn't talk

Why not?

For one

For another thing he didn't

And finally his mom was there.

You hear on the tape he says, "I know, mom.

23

I heard.”

24

talking too much with his parents coming

25

didn't have any evidence on that, but that would certainly

c

His parents are in the room.

He's not going to be
in and out.

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

We

Case

^4/gg|

Pa9elD
95

1

put a damper on someone wanting to talk too much about the

2

specifics.
He did indicate repeatedly that she was not

3
4

telling the whole story when she accused him of stabbing this

5

guy; that there was more to it; that it wasn't like the

6

police and the newspapers were saying.

7

I'm going to read to you one more jury

8

instruction.

9

no duty or obligation to testify, and you must not draw any

The judge will tell that you the defendant has

10

inference unfavorable to the defendant because he did not

11

testify in this case.

12

And you're not to consider that in any way in

13

your deliberations.

14

won't the jury hold it against me if I don't testify?

15

client's asked me, won't they think I'm hiding something?

Now, my client's asked me, Mr. Ranken,
My

16

But when I'm handling a case this serious, I

17

ask myself if I do put my client on the stand, are you going

18

to believe him anyway?

19

serious, are you going to believe whatever he says, or are

20

you going to figure that he'll say whatever he needs to say

21

to try to be acquitted?

22

If someone's facing a charge this

I figure there's not much point in putting my

23

client on the stand.

I'm — it's not up to me anyway to

24

convince you of anything, to prove anything,

25

to convince you there's reasonable doubt by putting a

I'm not going

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

«

Case

>!K

PaflelD
96

1

defendant on the stand.
And that's why you shouldn't hold it against

2
3

him.

4

doubt, I've got do it some other way than my client's

5

testimony.

6

of proof.

And if I'm going to convince you there's a reasonable

And again the prosecution is one with the burden ■

7

They are the ones that need to put witnesses

8

on the stand to tell you — convince you beyond a reasonable

9

doubt of the truth, of what happened.
Let's talk about the weapons charges.

10

So far

11

I've only discussed the murder count.

The weapons charge

12

that requires the prosecution to prove that a dagger was

13

used.

14

manslaughter, that dagger was used ;— it's specified a

15

dangerous weapon, to wit a, dagger.

If you find that he's guilty of murder or

Now, have they proved this is a dagger?

16
17

don't know. .

18

That's what the witnesses were calling it.

19

I don't know that makes it a dagger.

20

envisioned a dagger.

I

They have proved it's a double-bladed knife.
You can see it.

That's not how I

21

So you — first of all, if you acquit Taryn

22

of murder and manslaughter then you must acquit him of this

23

charge automatically.

24

and manslaughter, this thing about the dagger — this is a

25

silly charge.

But even if you convict him of murder

It's — they haven't proved it's a dagger, and

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case l:0^?)0Wii
purs \

)
'

il

Pa9elD
97

1

I ask you to follow the letter of the law.
If they haven't proved beyond a reasonable

2
3

doubt what this weapon was, then you roust acquit on that

4

charge also.

5

There's some people on this jury — and I'm

6

not going to have time to go for all the — I'm not going to

7

have to time to go over the reasonable doubt in more detail.

8

It's something I like to discuss a lot.

9

standards of proof, you know, proof beyond a reasonable doubt

There's so many

10

and below that, you know, clear and convincing evidence.

11

There's preponderance of the evidence,

12

reasonable suspicion, probable cause.

13

There's lots of

You've heard these legal terms, but the

14

highest one of all just short of absolute certainty is the

15

standard proof beyond a reasonable doubt,

16

at all stages of your deliberations.

17

Keep that in mind

Now, I know there's some people on this jury

18

with strong voices and certainly will be able to express

19

themselves very well, and there's others on the jury who

20

perhaps are not as used to expressing yourself, as making

21

your views heard.

22

Probably a majority in the latter category.

23

I ask if you are in that category, please trust yourself,

24

trust yourselves,

25

talker or louder person more than you.

Don't let yourself be cowed by better
This system

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case 1:04^0^9^

Pa9elD
98

1

depends — the jury system depends and only works if each of

2

the 12 people here speaks their mind and follows their

3

instincts and doesn't go along with the crowd.

4

That's what the system is about, and we're

5

depending on — you know, we had a lot of challenges to

6

affect the composition of the jury, and we ended up with you

7

folks.

8
9

We both felt comfortable with you as a fair
jury, but it depends on you all speaking your mind not

10

yielding your beliefs to others because they come across

11

stronger.

12

Now, there's one thing I'm afraid of most in

13

this trial.

14

you.

15

judgment against Taryn, cause to you want to acquit him of,

16

at least, of manslaughter.

The last thing I'm going to talk about with

I'm afraid there's one thing that will sway your

17

I'm not so worried about murder.

I don't

18

think they have proved all that intent and lack of emotional

19

disturbance, but I'm worried that on the manslaughter you'll

20

be tempted.

21

You'll want to convict him.
And the reason that I'm worried about that

22

has anything to do with the evidence in this case.

The thing

23

I am afraid of is this:

24

tragedy will affect you emotionally in a way that you're mad

25

at Taryii.

I'm afraid your feelings about this

You want to get him for that charge and at a

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case l:0£3WC$3j}SI^

;8af&%jgf&$1 PagelD
99

1

minimum make it hard for you to weigh the evidence fairly

2

because of your strong feelings because who can help but

3

having strong feelings about something like that.

4

I/m afraid that you'll demand eye for an eye

5

regardless of the evidence and the law.

6

will resent and dislike my client because of his role in this

7

tragedy,

8

beyond that.

9

I'm afraid that you

I'm afraid that you'll have difficulty seeing

I'm afraid that these feelings will affect

10

your judgment, and I really don't know what to.do about it.

11

Other than just to implore you to weigh the evidence

12

dispassionately, implore you to follow Judge McConnell's on

13

law and let the chips fall where they may.

14

If you believe that Taryn Christian is guilty

15

of attempted theft, then you should convict him of that.

16

if you're angry at him because of his involvement in this

17

matter and how that's started all this happening, then you

18

should not let your anger at his actions spill over into your

19

consideration of the homicide charge.

20

You must treat these matters separately.

21

the judge will instruct you that you're to consider the

22

counts separately.

23

yourself be influenced by sympathy or passion, and that

24

includes sympathy for Mr. Cabaccang.

25

But

And

And he will also order you not to

Given the chance, each and every one of us in

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case

^4/E

Pa0elD
ioe

1

this room would like to restore Mr. Cabaccang's lij.^

2

sure my client would like to restore Mr. Cabaccang's life.

3

Yet none of us have the power to do that,

4

things as we find them.

5

We must take

We must move on, and the duty of a jury is to

6

render justice according to the laws of our society,

7

case, follow the law.

8

murder and manslaughter.

9

may not be easy emotionally to do, it's the right thing.

10

It means to acquit Mr. Christian of
And while it may lack symmetry, and

It's your duty.

11
12

Thank you, ladies and gentlemen.

God bless

you all.

13

THE COURT:

We'll take a short recess.

14

THE CLERK:

All rise.

15
16
17
18
19
20

In this

Court will stand in

recess.
(At which time a recess was taken.)
THE CLERK:
for its jury trial.

All rise.

Court is reconvened

Please be seated.

THE COURT:

Let the record reflect the

presence of the jury, Counsel, and the defendant.

21

Ms. Tengan, you may rebut, please.

22

MS. TENGAN:

23

Ladies and gentlemen of the jury, when you

Thank you, your Honor.

24

review Mr. Ranken's argument, do one thing,

25

the facts in light of his argument.

Do not review

But review his argument

Melissa D. Robertson, RPR, CSR 376
Official Court Reporter
State of Hawaii

Case 1:04^®0WW£ j®4/g@£8^ght14^04@^^i^/i
&&PlWc$h^ PagelD
Casa1:04-cv-00743-DAE-KSC DocumentlQQ7fF\\ed 08/29/08 Page 1 of 82 PagelD#:

2443
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII
TARYN CHRISTIAN,
Petitioner,
vs.
CLAYTON FRANK, Director,
State of Hawaii, Department
of Public Safety,

CIVIL NO. 04-00743 DAE-LEK

)
)
)
)
)
)
)
)
)

Respondent.
)

FINDINGS AND RECOMMENDATION TO GRANT IN PART AND
DENY IN PART PETITION FOR WRIT OF HABEAS CORPUS
Petitioner Taryn Christian ("Petitioner") filed a
petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254
("Petition") on December 22, 2004.

Respondents Richard Bissen,

Acting Director,1 and the State of Hawaii Department of Public
Safety (collectively "Respondents") filed their Answer to the
Petition on September 30, 2005.
December 15, 2005.

Petitioner filed a Reply on

United States District Judge David Alan Ezra

referred the Petition to this Court pursuant to 28 U.S.C. §
636(b) and Rule LR72.5 of the Local Rules of Practice of the
United States District Court for the District of Hawaii ("Local
Rules").

This Court conducted an evidentiary hearing pursuant to

Rule 8 of the Rules Governing Section 2254 Cases, 28 U.S.C. foil.
1 Mr. Bissen was replaced with Respondent Iwalani D. White,
Interim Director, pursuant to Fed. R. Civ. P. 25(a)(1). Ms.
White has since been replaced by Respondent Clayton Frank,
Director.

APPENDIX “D”

Case
lM1 PagelD
Case 1:04-cv~00743-DAE-KSC Document: M©76iled 08/29/08 Page 58 of 82 PagelD #:

2500

had conducted forensic testing, the result of the trial would
have been different.

See Strickland, 466 U.S. at 694.

Thus, even assuming, arguendo, that trial counsel's
failure to conduct forensic testing fell below the objective
standard of reasonableness, Petitioner's ineffective assistance
of counsel claim would still fail because he cannot establish
This Court FINDS that the denial of Petitioner's

prejudice.

ineffective assistance of counsel claim regarding forensic
testing was not contrary to or an unreasonable application of
clearly established federal law.

The Court therefore RECOMMENDS

that the district judge DENY Ground Three with regard to this
claim.
4.

Change in Defense Theory

In his opening statement, trial counsel argued that
Petitioner did not kill Cabaccang.

In his closing argument,

counsel asked the jury to decide whether there was a reasonable
doubt that Petitioner inflicted Cabaccang's wounds.

Counsel also

argued that, if the jury determined that Petitioner did inflict
the wounds, it had to decide whether Petitioner acted in selfdefense and whether he acted under extreme emotional disturbance.
[Mem. in Supp. of Petition at 33, 37-38.]

Trial counsel also

stated that the defense did not contest the fact that Cabaccang
tackled Petitioner and that Petitioner was on the ground under
him.

rid, at 38.]

Counsel stated that both Petitioner and
58

Case 1:0^W0WM
Case 1:04-cv-00743-DAL-KSC Document H4ffi7Filed 08/29/08 Page 59 of 82

PagelD
PageiD #:

2501
Cabaccang had knives in the struggle and that Petitioner had cuts
on his stomach and hand after the struggle.

Petitioner argues

that counsel's argument ignored evidence at trial which
established that Petitioner did not have cuts on his hand or bodyafter the incident.

[IcL at 39-40.3

Counsel also argued that

the presence of Cabaccang's blood on the back of Petitioner's
shirt showed that Cabaccang, who was already bleeding, attacked
Petitioner, who was face down on the ground.
Petitioner fought back to defend himself.

Counsel argued that

fid, at 42-43.]

Counsel, however, acknowledged that, had Petitioner testified, he
would have denied committing the offense.

fid, at 33.]

Petitioner argues that counsel's strategy during
closing argument was against Petitioner's wishes and gave the
jury the impression that the defense "was being less than
candid."

fid, at 33-34.]

Trial counsel also stated during

closing argument that he did not know what happened on the night
in question, a statement Petitioner argues was against his best
interests.

[IcL. at 34.]

Further, trial counsel's closing

argument presented a theory of the case that was similar to the
prosecution's.

fid, at 41.]

Trial counsel also told the jury that Petitioner asked
him if the jury would think he was hiding something if he did not
testify.

Counsel stated that he believed there was no point in

putting Petitioner on the stand because the jurors likely would

59

Case 1:0^I)0W^ $4/gQi8^ght141^04|3^fei^/l
Case 1:04-cv-00743-DAE-KSC Document:! 3097ISIed 08/29/08 Page 60 of 82

PagelD
PagelD #:

2502
not believe Petitioner.

They might think that, because of the

serious charges against him, Petitioner would say whatever he
thought was necessary to be acquitted.

Petitioner argues that

counsel's closing argument exacerbated the fact that he was not
allowed to testify.

[Id,, at 44-45.]

The Petition argues that counsel's closing argument was
"profoundly prejudicial".

rid, at 46.]

Petitioner maintains

that counsel's argument lessened the prosecution's burden of
proof by conceding critical factual issues.

Petitioner argues

that trial counsel failed to subject the prosecution's case to
meaningful adversarial challenge, in violation of his Sixth
Amendment rights.

[id*, at 46-47.]

In connection with the

defense's motion for a new trial, trial counsel submitted an
affidavit stating that, if the court had allowed Petitioner to
testify, he would have denied stabbing Cabaccang and would have
described a third man at the scene.

Petitioner argues that this

is contrary to counsel's strategy during closing argument and
illustrates that counsel's closing argument seriously prejudiced
him.

fid, at 49.]

He contends that there is a reasonable

probability that the outcome of the trial would have been
different were it not for counsel's errors during closing
argument.

fid, at 50.]
At the outset of trial, the defense's strategy was to

establish that Petitioner did not kill Cabaccang.

60

By the time of

Case
ffipeiWtfflM1 PaqelD
Case 1:04-cv-00743-DAt-KSC Documer#;'M8)7Ped 08/29/Ob Page 61 of 82 PagelD#:

2503

closing arguments, however, trial counsel apparently altered the
defense's strategy and presented self-defense and extreme
emotional disturbance as alternative arguments.

This Court finds

that, under the circumstances of the trial, this decision was
within "the wide range of professionally competent assistance."
See Strickland. 466 U.S. at 690.

As discussed, supra, Burkhart

invoked the Fifth Amendment when called as a defense witness and
the trial court excluded the witnesses who would have testified
that Burkhart confessed to killing Cabaccang.

These events

certainly hurt the defense's ability to establish that another
person, namely Burkhart, killed Cabaccang.

Trial counsel's

strategic decision to also argue self-defense and extreme
emotional disturbance was objectively reasonable under the
circumstances.
Similarly, counsel's discussion of why counsel did not
want Petitioner to testify and that Petitioner would have
testified as to his version of the events at issue was apparently
in response to the trial court's ruling about Petitioner's
request to testify.

While trial counsel's statement that the

jury would likely have disbelieved Petitioner's testimony may
have been ill advised, the Court cannot say that it rose to the
level of constitutionally deficient performance.
This Court FINDS that the denial of Petitioner's
ineffective assistance of counsel claim regarding the change of

61

Case 1:0^0WW§ ^^0i8rrliHt14^O4ftliy<tSw!»7l
Case 1:04-cv-00743-DAfc-KSC Documen$:t&&)8{3iled 08/29/08 Page 62 of 82

PaaelD
PagelD #:

2504
the defense theory was not contrary to or an unreasonable
application of clearly established federal law.

The Court

therefore RECOMMENDS that the district judge DENY Ground Three
with regard to this claim.
5.

Other allegations

In addition, Petitioner asks the court to consider
seven other instances of trial counsel's alleged ineffective
assistance16 that Petitioner raised in his Rule 40. Petition.
Petitioner alleges that trial counsel was ineffective in failing
to: a) present a forensic pathologist to disprove the
prosecution's theory of how the incident occurred; b) discredit a
lay witness's identification of Petitioner's handwriting; c)
introduce available evidence that Petitioner did not have stolen
stereo equipment in his possession; d) make offers of proof
regarding additional witnesses who would have given testimony
about Burkhart confessions; e) call witnesses to contradict
Burkhart's alibi; and f) present evidence that Seidel and
Burkhart knew each other.

[Mem. in Supp. of Petition at 23-24.]

The Petition does not contain any substantive analysis of these
claims, apparently incorporating the arguments in the Rule 40
Petition by reference.

18 Petitioner lists eleven arguments, but two are
evidentiary issues which the Court identified as Ground Nine, two
were addressed in Ground Three or in Ground Eight, and the final
argument was ruled unexhausted by the district judge.
62

Case

PagelD

Case l:04-cV-00743-DAE-KSC Document

.

09/30/08 Page 1 of 35

■‘7r-'.'-: ""-72701 ".....

PageiD#:

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAIT
)

TARYN CHRISTIAN,

CV. NO. 04-00743 DAE-LEK

)
)
)
)
)

Petitioner,
vs.
IWALANI WHITE, Director, State
of Hawaii Department of Public
Safety,
Respondent.

)
)
)
)
)
)

ORDER ADOPTING IN PART AND MODIFYING IN PART
THE MAGISTRATE JUDGE’S BINDINGS AND RECOMMENDATION TO
GRANT IN PART AND DENY IN PART THE PETITION FOR WRIT OF
HABEAS CORPUS; AND ORDER DENYING RESPONDENT’S AND
PETITIONER’S OBJECTIONS TO PORTIONS OF MAGISTRATE
JUDGE’S FINDINGS AND RECOMMENDATIONS
Pursuant to Local Rule 7.2(d), the Court finds this matter suitable for
disposition without a hearing. After reviewing Respondent’s and Petitioner’s
Objections, and the supporting and opposing memoranda, the Court DENIES
Respondent’s Objections (Doc. # 148) to the Magistrate Judge’s Findings and
Recommendation to Grant in Part and Deny in Part Petition for Writ of Habeas
Corpus, filed on August 29,2008 (hereinafter ‘T&R”, Doc. # 146) and DENIES
Petitioner’s Objection to Portions of Magistrate Judge’s F&R. (Doc. # 149).

?

-

>

Case 1:0^'0WW
Case l:04-cv-00743-DAE-KSC Document

2728

.^pe^^phMI pageiD
09/30/08 Page 28 of 35 PageiD#:

whether it was with the range of competent assistance not to order an enhanced
version of the tape. This Court agrees with the Magistrate Judge and
independently finds that it was not below an objective standard of reasonableness
not to do so because Mitchell testified that enhancement was unnecessary, and
Smith testified that the statement was unintelligible.
Accordingly, this Court DENIES this objection to the F&R.
4.

Change in Defense Theory

Petitioner asserts that presenting alternate theories of defense at
closing that Petitioner did not commit the crime, but that if he did, it was in selfdefense, had no chance of convincing a jury to find in Petitioner’s favor, and thus
fell below the Strickland standard.
The Magistrate Judge found the decision was within “the wide range
of professionally competent assistance” because the trial court excluded the
witnesses who would have testified that Burkhart confessed to killing Cabaccang,
and therefore, the main theory of defense was not very strong.
This Court also finds on a de novo review that a change of the theory
of defense did not fall below an objective standard of reasonableness. As the main
theory of defense that Burkhart committed the killing was not supported by strong
evidence, it was within the wide range of competence and trial strategy to argue
28

Case
Case l:04-cv-00743-DAE-KSC Document ?5^°F^d 09/30/08 Page 29 of 35
2729

PagelD
PagelD #:

that in the event the jury believed the prosecution, it should consider that the
stabbing was in self-defense. Accordingly, this Court DENIES this objection to
the F&R.
5.

Handwriting Identification and Stereo Equipment

Petitioner alleges that his trial counsel Was ineffective for failing to
discredit a lay witness’s identification of his handwriting by showing that a
handwriting expert hired by the prosecution had been unable to identify the writing
in question as Petitioner’s handwriting. Petitioner also asserts that his counsel was
ineffective for failing to introduce available evidence that Petitioner had purchased
the stereo equipment in his possession, and it was not stolen.
The Magistrate Judge noted that Petitioner did not elaborate on these
arguments in any of the briefing on the instant motion. The Magistrate Judge
found that these two claims pertained to Petitioner's conviction of attempted theft
in the third degree. The Magistrate Judge therefore, found that this Court did not
have habeas jurisdiction over such claims because Plaintiff has served his sentence
for the theft by the time he filed the Petition.
Petitioner objects to this finding and asserts that these issues relate to
the alleged motive for the homicide because the prosecution had claimed that

29

Case 1:0^S0WW

:fip^M1o?4!&'l

PagelD

#: 10984
U.S. District Court
District of Hawaii
Notice of Electronic Filing
The following transaction was entered by Modafferi, Gary on 10/19/2018 at 10:34 AM HST and filed on 10/19/2018
Case Name:
Christian v. Bissen, et al
Case Number:
1:04-cv-00743-DAE-KSC
Filer:
Taryn Christian
WARNING: CASE CLOSED on 02/23/2011
Document Number: 453
Docket Text:
MOTION Petitioner's Independent Action for Equitable Relief from Judgment Under Federal Rule 60(d)(1) Pursuant
to Intervening Supreme Court Precedent in McCoy v. Louisiana, (2018) Gary A. Modafferi appearing for Petitioner
Taryn Christian (Attachments: # (1) Appendix A-E)(Modafferi, Gary)
l:04-cv-00743-DAE-KSC Notice has been electronically mailed to:
Benjamin M. Acob

bacob@hawaiiantel.biz

Edric Ming-Kai Ching edric.ching@usdoj.gov, CaseView.ECF@usdoj.gov, christina.lara@usdoj.gov,
courtney.kinoshita@usdoj.gov, myra.peterson@usdoj.gov, USAHI.ECFCivil@usdoj.gov,
valerie.domingo@usdoj .gov
Gary A. Modafferi

gmodafferi@hotmail.com

Moana Monique Lutey moana.lutey@co.maui.hi.us, candace.stahl@co.maui.hi.us,
litigation.calendar@co.maui.hi.us, michele.white@co.maui.hi.us, sharon.oshaughnessy@co.maui.hi.us,
tanya.quitazol@co.maui.hi.us
Peter A. Hanano

peter.hanano@co.maui.hi.us, richard.minatoya@mauicounty.gov

Richard K. Minatoya richard.minatoya@mauicounty.gov, Linda.Tengan@co.maui.hi.us,
Peter.Hanano@co.maui.hi.us
l:04-cv-00743-DAE-KSC Notice will not be electronically mailed to:
The following document(s) are associated with this transaction:
Document description: Main Document
Original filename: n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID= 1095854936 [Date=l 0/19/2018] [FileNumber=25229180] [65d51395a86bd2358315fc7d2b44fa2db70elbl328334e614208c20586e207eddf
9f03524654f2d0903deba7afb87f2639c5eaa203806bcf0db442c8321670d7]]
Document description: Appendix A-E
Original filename: n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=l095854936 [Date= 10/19/2018] [FileNumber=25229181 ] [072f4389ea953f881 fba4c2ba8182ae63c 14753f92a49bc97dddf2c40b913b30fl
el6eba2654b662f594a2d07e80f5ad0de62e4c275e7e48cl Ie0ae4dd0bef24]]

APPENDIX D

l

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 Page 1 of 35

2701

PagelD#:

• IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAT I
TARYN CHRISTIAN,

)

CV. NO. 04-00743 DAE-LEK

)

Petitioner,

)
)

vs.

)
)

IWALANI WHITE, Director, State
of Hawaii Department of Public
Safety,

)
)
)
)

Respondent.

)
)

ORDER ADOPTING IN PART AND MODIFYING IN PART
THE MAGISTRATE JUDGE’S FINDINGS AND RECOMMENDATION TO
GRANT IN PART AND DENY IN PART THE PETITION FOR WRIT OF
HABEAS CORPUS; AND ORDER DENYING RESPONDENT’S AND
PETITIONER’S OBJECTIONS TO PORTIONS OF MAGISTRATE
JUDGE’S FINDINGS AND RECOMMENDATIONS
Pursuant to Local Rule 7.2(d), the Court finds this matter suitable for
disposition without a hearing. After reviewing Respondent’s and Petitioner’s
Objections, and the supporting and opposing memoranda, the Court DENIES
Respondent’s Objections (Doc. # 148) to the Magistrate Judge’s Findings and
Recommendation to Grant in Part and Deny in Part Petition for Writ of Habeas
Corpus, filed on August 29, 2008 (hereinafter “F&R”, Doc. # 146) and DENIES
Petitioner’s Objection to Portions of Magistrate Judge’s F&R. (Doc. # 149).

f

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 Page 2 of 35
2702

PagelD #:

This Court previously ADOPTED the F&R with respect to allowing
Petitioner to choose between dismissal of the entire petition or amending the
petition to delete two unexhausted claims. (Doc. # 151.) Petitioner amended the
petition by deleting the unexhausted claims. (Doc. # 152.) This Court now
ADOPTS in PART and MODIFIES in PART the remainder of the F&R. The F&R
is modified only with respect to the basis for denying the portion of Ground Three
that was based on handwriting and stereo equipment claims. This Court
MODIFIES that portion as set forth below, which in general holds that the
handwriting and stereo equipment claims were based upon both the theft
conviction and the murder conviction. As such, this Court has habeas jurisdiction
to consider such claims. Nevertheless, these claims fail because Petitioner has not
met his burden of providing evidence that his counsel’s assistance fell below the
objective standard of reasonableness or that he suffered prejudice.

BACKGROUND
This Court repeats only the background facts necessary for a decision
on the objections to the F&R in the discussion section below. The facts set forth
herein were those found by the Magistrate Judge after an evidentiary hearing.
Additional background facts are contained in the F&R.

2

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 Page 3 of 35
2703

PagelD #:

In 1997, Petitioner was convicted of one count of murder in the first
degree, one count of use of a deadly or dangerous weapon in the commission of the
crime, and one count of theft in the third degree in connection with the stabbing
death of Vilmar Cabaccang. Petitioner was sentenced to concurrent sentences of
life imprisonment with the possibility of parole, five years imprisonment, and one
year imprisonment, respectively.
Petitioner filed an Amended Petition pursuant to 28 U.S.C. § 2254 on
September 29, 2008. The Amended Petition alleges, inter alia, the following
grounds for habeas relief which are at issue in the objections filed: 1) deprivation
of Petitioner's right to testify on his own behalf (“Ground One”); 2) improper
exclusion of testimony by three witnesses that James Burkhart confessed to killing
Cabaccang (the “Burkhart confessions”) (“Ground Two”); 3) ineffective assistance
of trial counsel based on various actions and omissions by counsel (“Ground
Three”); and 4) actual innocence (“Ground Four”).
Although the original petition was a mixed petition, the Magistrate
Judge considered the arguments on the exhausted claims, assuming that Petitioner
would file an Amended Petition. The Magistrate Judge recommended that the
Petition be granted with respect to Ground Two because the exclusion of the

3

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 Page 4 of 35
2704

PagelD #:

Burkhart confessions was contrary to clearly established federal law. (Doc. # 146).
The Magistrate Judge denied the Petition with respect to all other grounds.
Both parties filed objections on September 9, 2008. (Docs. #148,
149.) Petitioner filed a response to Respondent’s objections on September 22,
2008. Petitioner filed an amended petition on September 29, 2008, deleting the
unexhausted claims.
STANDARD OF REVIEW
Any party may serve and file written objections to proposed findings
and recommendations. See 28 U.S.C. § 636(b). Pursuant to Local Rule 74.2,
when a party objects to a magistrate judge’s dispositive order, findings, or
recommendations, the district court must make a de novo determination. A de
novo review means “the court must consider the matter anew, the same as if it had
not been heard before and as if no decision previously had been rendered.” U.S.
Pac. Builders v. Mitsui Trust & Banking Co.. 57 F. Supp. 2d 1018, 1024 (D. Haw.
1999) (citation omitted).
“The court may ‘accept, reject, or modify, in whole or in part, the
findings or recommendations made by the magistrate.’ The court also may receive
further evidence or recommit the matter to the magistrate with instructions.”

4

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 Page 5 of 35
2705

PagelD #:

McDonnell Douglas Corp. v. Commodore Bus. Machs.. Inc.. 656 F.2d 1309, 1313
(9th Cir. 1981) (citation omitted); LR 74.2.
DISCUSSION
Because Petitioner filed an amended petition deleting the unexhausted
claims, this Court will now address the objections on the merits by both parties.
I.

Respondent’s Objections
Petitioner sought to admit at trial the testimony of three persons,

William Auld, Patricia Mullins, and Robert Boisey Pimentel, who would state that
Burkhart confessed to killing Cabaccang. Trial counsel made an offer of proof as
to testimony of William Auld and Patricia Mullins. Auld shared a jail cell with
Burkhart in 1995 (the same year as the June 1995 murder of Cabaccang) and Auld
would testify that Burkhart admitted to stabbing Cabaccang. Burkhart also told
Auld that he liked the feel of Cabaccang’s blood running down his hands and arms.
Mullins was a friend of Burkhart’s and she had known the victim
Cabaccang for a long time. She would testify, inter alia, that she had a
conversation with Burkhart about two days after the murder, and he confessed to
her that he was the one who killed Cabaccang. Burkhart told her that he would get
away with it because Cabaccang’s girlfriend, Serena Seidel, would not identify him

5

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 Page 6 of 35
2706

PagelD #:

as the killer.1 Subsequently, Mullins saw Burkhart and he told her “you better keep
your mouth shut” and “you better not rat on me.”
Trial counsel argued to the trial court that the following evidence
constituted corroborating circumstances, indicating that the Burkhart confessions
were reliable under Hawaii Rule of Evidence 804(b)(3):
-Tesha Santana, Cabaccang’s neighbor, was a friend of Burkhart’s and
he was supposed to come to her house on the night in question, thus showing that
he was expected to be in the neighborhood;
-Cabaccang’s car was opened with his keys and Petitioner did not
have access to the keys because he did not know either Cabaccang or his girlfriend,
Serena Seidel;
-Robert Boisey Pimentel would testify that Burkhart had an unusual
knife that matched descriptions of the knife used in the attack on Cabaccang;
-Judith Laury would testify that Seidel did not call for help, but
repeatedly yelled Tesha, which trial counsel argued showed she wanted Burkhart's
friend Tesha Santana there because Burkhart was at the scene;

There was apparently evidence that Seidel had a relationship with Burkhart.
6

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 Page 7 of 35
2707

PagelD #:

-Jennifer Santana would also testify that, within a couple of weeks
after the stabbing, they received two calls warning Tesha to keep her mouth shut
because Tesha had made comments suggesting that Burkhart was involved in the
stabbing;
-Auld’s and Mullins’ statements corroborate each other.
The prosecutor argued that the defense had not established
corroboration or the trustworthiness of the statements. The prosecutor’s arguments
included: Burkhart had a motive to lie to try to impress Auld and Mullins; both
Auld’s and Mullins’ credibility was questionable because both were incarcerated at
one point in time; Seidel testified that she did not know Burkhart; and none of the
witnesses picked Burkhart’s picture out of the photographic line-ups. Further,
Burkhart gave a statement to a detective denying involvement in the stabbing. The
prosecutor also represented that Helen Beatty Auweloa could testify that Burkhart
was someplace else on the night of the stabbing. Finally, the prosecutor argued
that the fact that Cabaccang’s keys were at the scene did not prove anything and
the defense’s witness could not recall sufficient information about Burkhart’s knife
to identify it as the one at the scene.
In excluding the testimony of the various witnesses, the trial court
found that the requirements for Hawaii Rule of Evidence 804(b)(3) were not met
7

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 Page 8 of 35
2708

PagelD#:

because the trustworthiness of the statements was not clearly demonstrated. The
Hawaii Supreme Court affirmed. After holding an evidentiary hearing on the
instant Petition, the Magistrate Judge held that the Petition should be granted with
respect to Ground Two because the exclusion of the proposed testimony about the
Burkhart confessions was contrary to clearly established federal law.
Respondent objects to this finding. Respondent first argues that the
Magistrate Judge erred because she focused on the trial court’s decision to exclude
the confessions, but did not closely examine the Hawaii Supreme Court’s
judgment, which was the last reasoned state judgment. Respondent next argues
that the Magistrate Judge erred in finding that the Hawaii Supreme Court’s
decision was contrary to clearly established federal law because the Hawaii
Supreme Court identified the correct legal rule set forth in Chambers v.
Mississippi. 410 U.S. 284 (1973) and applied the rule correctly. Respondent
further avers that the exclusion of the Burkhart confessions did not have an
injurious effect or influence on the jury’s verdict. Finally, Respondent argues that
the Magistrate Judge erred in making a factual finding that there was testimony at
trial that Burkhart was somewhere else at the time of the incident. Therefore,
Respondent asserts that the F&R to grant the petition on this ground should be
rejected and the petition should be denied.
8

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 Page 9 of 35
2709

A.

PagelD#:

Unreasonable Application Finding
Respondent contends that the Magistrate Judge did not properly

consider the Hawaii Supreme Court’s affirmance of the trial court’s exclusion of
the Burkhart confessions. Respondent does not further flesh out this particular
argument. It is clear to this Court that the Magistrate Judge did consider the
Hawaii Supreme Court’s decision. Indeed, that decision is cited numerous times
and referred to throughout the F&R. (See F&R at 3-4,41-42,45.) Nevertheless,
as acknowledged by Respondent, the trial court’s reasoning is relevant.
Accordingly, this objection does not provide a basis for finding in Respondent’s
favor.
Respondent avers that that the Hawaii Supreme Court’s affirmance of
the trial court’s decision to exclude the Burkhart confessions was not an
unreasonable application of the federal law established in Chambers v. Mississippi.
410 U.S. 284 (1973) because the Burkhart confessions were hearsay that did
contain a sufficient indicia of reliability. Instead, Respondent asserts that the
corroborating circumstances presented by Petitioner’s trial counsel constituted
mere argument, were speculative and lacked connection with the murder, and
therefore, it was appropriate to exclude the evidence. In addition, Respondent
avers, there was no evidence that Burkhart was observed at the crime scene, his
9

Case l:04-cv-00743-DAE-K^C Document 153 Filed 09/30/08 Page 10 of 35

PagelD #:

2710

confessions were not written or recorded, there was no corroboration of Pimentel’s
potential testimony, Mullins’ and Auld’s testimony would have been diminished
because the prosecution had two witnesses that could have testified that Burkhart
was somewhere else, and Burkhart was unavailable and did not testify.
“Whether rooted directly in the Due Process Clause of the Fourteenth
Amendment or in the Compulsory Process or Confrontation clauses of the Sixth
Amendment, the Constitution guarantees criminal defendants a meaningful
opportunity to present a complete defense.” Holmes v. South Carolina. 547 U.S.
319, 324 (2006) (internal quotation marks and citations omitted). “The right of an
accused in a criminal trial to due process is, in essence, the right to a fair
opportunity to defend against the State's accusations [and the] rights to confront
and cross-examine witnesses in one’s own behalf have long been recognized as
essential to due process.” Chambers. 410 U.S. at 294.
However, “state and federal rulemakers have broad latitude under the
Constitution to establish rules excluding evidence from criminal trials[,]” including
evidence that someone else committed the crime, as long as those rules serve a
legitimate purpose or are not “disproportionate to the ends that they are asserted to
promote[.]” Holmes. 547 U.S. at 324-25.

10

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 Page 11 of 35

PagelD it:

2711

In Chambers, the state’s evidentiary rules barred parties from
impeaching their own witnesses, and did not include an exception to the hearsay
rule for statements against penal interest. The Supreme Court held that the
defendant’s due process rights were violated because these two evidentiary rules
worked to bar the defendant from introducing evidence that another person,
McDonald, had made self-incriminating statements to three other persons, and
prevented the defendant from cross-examining McDonald. Chambers. 410 U.S, at
302.
At issue here is the State court’s application of Hawaii Rule of
Evidence 804(b)(3), which provides that hearsay statements are inadmissible but
that statements against interest are not excluded if the declarant is unavailable as a
witness. The rule defines a statement against interest as follows:
A statement which was at the time of its making so far
contrary to the declarant’s pecuniary or proprietary
interest, or so far tended to subject the declarant to civil
or criminal liability, or to render invalid a claim by the
declarant against another, that a reasonable person in the
declarant’s position would not have made the statement
unless the declarant believed it to be true.
Haw. R. Evid. 804(b)(3). The rule further provides that “[a] statement tending to
expose the declarant to criminal liability and offered to exculpate the accused is not

11

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 Page 12 of 35

PagelD #:

2712

admissible unless corroborating circumstances clearly indicate the trustworthiness
of the statement.” Id.
In excluding the testimony of the various witnesses to the Burkhart
confessions, the trial court found that the requirements for Hawaii Rule of
Evidence 804(b)(3) were not met because the trustworthiness of the statements was
not clearly demonstrated. The trial court did not consider Chambers or whether the
exclusion of the testimony violated Petitioner’s constitutional rights. In affirming
the trial court’s exclusion of the evidence, however, the Hawaii Supreme Court
considered Chambers. See State v. Christian. 967 P.2d 239, 262 (Haw. 1998). The
Hawaii Supreme Court found Chambers was distinguishable from the instant case
because “corroborating circumstances of the type noted by the Chambers court
[we]re not present in the instant case[,]” and the corroboration presented by
Petitioner was “too weak clearly to indicate the trustworthiness of Burkhart’s
confessions to Auld and Mullins[.]” Id at 262, 263. Specifically, the Hawaii
Supreme Court noted that
no eyewitness linked Burkhart to the stabbing of
Cabaccang. On the contrary, the two individuals who had
an opportunity to observe Cabaccang’s assailant failed to
identify Burkhart in a photo lineup, and instead, both

12

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 Page 13 of 35

PagelD #:

2713

identified Christian as the attacker.2 Moreover, the
prosecution offered two witnesses who placed Burkhart
at another location at the time of the stabbing.3 Second,
neither of the two confessions allegedly made by
Burkhart were sworn, as was McDonald's confession to
Chambers's attorneys. Finally, while there is evidence
that Burkhart owned an unusual “butterfly” knife,
Christian himself conceded that the split blade knife
found at the crime scene was not a “butterfly” knife.
Id. at 262-63. Therefore, the Hawaii Supreme Court found that
[t]he only arguably corroborating evidence offered by
Christian did not link Burkhart to the crime, but rather, in
a rather tenuous manner, to the neighborhood in which
the crime took place, by indicating that Burkhart had
failed to appear at the nearby home of his friends, who
had been expecting his visit that evening.
Id. at 263.
The Magistrate Judge noted the Hawaii Supreme Court’s ruling, but
found that were significant similarities between the Chambers case and the instant

2 Since the Supreme Court’s ruling, and as part of the evidentiary hearing in
this case, one of these witnesses, Phillip Schmidt, has recanted his identification of
Petitioner and has identified Burkhart as the person he saw leaving the crime scene.
3 Although not admitted into evidence at the instant evidentiary hearing due
to timeliness concerns, Petitioner presented a declaration by one of these witnesses,
Helen Betbeatty-Auweloa, who recanted her previous statement regarding
Burkhart being present in her home near the time of the murder, and now states
that she cannot be certain that Burkhart was in her home because she was sleeping
and he could have left.
13

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 Page 14 of 35

PagelD#:

2714

case. Specifically, as in Chambers. Burkhart made spontaneous confessions to at
least three persons after the murder occurred, and urged one of them not to turn
him in.4 In addition, the Magistrate Judge cited to Chia v. Cambra. 360 F.3d 997,
1004-05 (9th Cir. 2004), which in turn cited to a Supreme Court case for the
proposition that “[s]elf-inculpatory statements have long been recognized as
bearing strong indicia of reliability.” (citing Williamson v. United States. 512 U.S.
594, 599 (1994)). Finally, the Magistrate Judge noted in a footnote that although
the Burkhart confessions did not have all of the corroborating evidence that the
McDonald confessions had, nothing in Chambers dictated that the same level of
corroborating evidence is required. (Doc. # 146 at 46 n.16.) The Magistrate Judge
found that “[t]he trial court appeared to weigh Petitioner's supporting evidence
against the prosecution’s evidence in determining whether there was corroboration
for the confessions. The trial court should have left that process for the jury and
should only have made a basic determination whether there was sufficient
corroboration to render the confessions admissible.” (Id. at 48-49.) The
Magistrate Judge therefore found that “the trial court's exclusion of the proposed

4 One of these confessions was made to Patricia Mullins only two days after
the murder.
14

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 Page 15 of 35

PagelD#:

2715

testimony about the Burkhart confessions was contrary to clearly established
federal law, as set forth in Chambers.”
This Court agrees with the Magistrate Judge and after a de novo
review independently finds that with respect to the ruling by the Hawaii Supreme
Court, it was an unreasonable application of Chambers because it did not consider
the strong indicia of reliability of self-inculpatory statements, it did not consider
the fact that Burkhart had confessed to at least three persons, each of which
provides corroboration for the other, and it did not recognize that the Chambers
case does not require the same level of corroboration that was present in Chambers
for all cases. Moreover, some of the evidence cited by the Hawaii Supreme Court,
such as the failure of a connection between Burkhart and the crime scene, and the
identification of Petitioner at the crime scene, goes beyond whether the three
confessions have an indicia of reliability and crosses-over into the realm of the
weight of the evidence against Petitioner.
Accordingly, this Court finds that the exclusion of the Burkhart
confessions was contrary to clearly established federal law, as set forth in
Chambers.

15

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 Page 16 of 35

PagelD #:

2716

B.

Injurious Effect and Evidence of Burkhart’s Whereabouts
Respondent argues that Petitioner has not shown that the exclusion the

Burkhart confessions had a substantial and injurious effect or influence in the
jury’s verdict. Respondent also avers that the Magistrate Judge erred by finding
that Petitioner was injured by the exclusion of the Burkhart confessions because he
was unable to rebut the evidence presented by the prosecution that Burkhart was
somewhere else at the time of the stabbing. Respondent states this was an error
because the prosecution never presented any evidence of Burkhart’s whereabouts
at the time of the murder. Respondent argues that the exclusion of the Burkhart
confessions did not have an injurious effect because they did not have an indicia of
reliability, Petitioner presented alternate defenses at closing, which diminished the
value of the confessions, and the other evidence overwhelmingly implicated
Petitioner.
Habeas petitioners are not entitled to relief based on trial error unless
the error “had substantial and injurious effect or influence in determining the jury’s
verdict.” Brecht v. Abrahamson. 507 U.S. 619, 637-38 (1993). This harmless
error standard applies to “non-constitutional error in cases on direct review and to
constitutional error in cases on collateral review.” Arnold v. Runnels. 421 F.3d
859, 867 (9th Cir. 2005). “[Ejrror is harmless if [the court] can say with fair
16

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 Page 17 of 35

PagelD #:

2717

assurance that it did not have a substantial effect, injurious to the defendant, on the
jury's decision-making process.” Id,
Respondent argues that the only injury to Petitioner was an inability to
allegedly rebut the prosecution’s evidence of Burkhart’s whereabouts, however,
the prosecution never presented such evidence. This argument lacks merit. It is
irrelevant whether or not the prosecution presented evidence because Petitioner’s
due process rights were violated because he was unable to present a theory of
defense, not just because he could not rebut the prosecution’s evidence regarding
Burkhart.
Moreover, as set forth above, the Burkhart confessions had sufficient
indicia of trustworthiness because they were self-inculpatory statements made to
three separate people, all of which corroborate each other.
Respondent’s argument that the presentation at closing of a selfdefense theory and extreme emotional disturbance diminished the value of the
Burkhart confessions is also an irrelevant consideration because those alternative
defense theories likely would not have been presented had Petitioner been able to
introduce into evidence the Burkhart confessions.
Finally, the allegedly overwhelming evidence implicating Petitioner is
not relevant. As noted by the Ninth Circuit, the question “is not whether the
17

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 Page 18 of 35

PagelD#:

2718

evidence was sufficient or whether the jury would have decided the same way even
in the absence of the error. The question is whether the error influenced the jury.”
Id. at 869.
This Court cannot say with fair assurance that the exclusions of the
Burkhart confessions did not have a substantial effect on the jury’s guilty verdict.
For these reasons, this Court DENIES Respondent’s objections and
ADOPTS the Magistrate Judge’s F&R. This Court GRANTS the Petition on
Ground Two. The Court ORDERS Respondent to release Petitioner within seven
days after the judgment in the instant case is filed, subject to appropriate release
conditions, unless the State elects to retry Petitioner; and ORDERS Respondent to
report to this Court, within ten days after the judgment in the instant case is filed,
whether Petitioner was released or will be retried.
II.

Petitioner’s Objections
A.

Ground One. Denial of Right to Testify
After the presentation of evidence, but before closing arguments,

Petitioner informed the trial court that he wanted to testify. Petitioner had twice
previously been informed about his right to testify in his own defense and he
waived his right. In a conference in chambers after his last minute request to
testify, the trial judge asked Petitioner if there was anything he wanted to say and
18

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 Page 19 of 35
2719

PagelD #:

Petitioner responded that there was “a tape of a witness that was in the presence of
[Burkhart] and [Seidel] on more than one occasion and shows that [Seidel]
committed peijury” when she testified for the prosecution. The trial court asked
Petitioner if he had anything else to say and he said that he did not. A discussion
ensued about reopening the case and discovery about the tape. The trial court
refused to allow the defense to reopen its case to allow Petitioner to testify. In
addition, Petitioner’s counsel and the trial court cautioned Petitioner that “if he
makes any further outbursts in front of the jury - first, not only is his counsel
correct it only hurts his case. Secondly, if he continues that, the Court will have no
choice but to exclude him from the courtroom.”
Petitioner later filed a motion for a new trial, arguing that the trial
court should have allowed the defense to reopen its case to allow Petitioner to
testify. The trial court reaffirmed the denial of Petitioner's request to testify on the
ground that Petitioner had previously declined to testify after the trial court's
colloquy and Petitioner waited until just before closing arguments to try to change
his mind.
Upon reviewing the trial court’s decision, the Hawaii Supreme Court
found that Petitioner had made a knowing and voluntary waiver of his right to
testify, which was not being challenged. The Hawaii Supreme Court determined
19

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 Page 20 of 35
2720

PagelD #:

that “the trial court must pass on a defendant's attempted withdrawal of the prior
waiver of his or her right to testify, tendered before the commencement of closing
arguments, pursuant to the ‘liberal approach,’ whereas such an attempted
withdrawal tendered thereafter is subject to the ‘manifest injustice’ standard.”
Christian. 967 P.2d at 257. The stricter standard applies after the close of evidence
because the “post-evidentiary phase of the trial, i.e., the parties’ closing arguments
... is, after all,.. . [the] point in the proceedings that the defendant has taken the
‘decisive, irrevocable step’ of placing his or her fate regarding the charged offenses
in the jury's hands, based on the evidence presented.” Id.
Applying the liberal approach to Petitioner’s first request to withdraw
his waiver of his right to testify, the Hawaii Supreme Court found that the trial
court did not abuse its discretion in denying Petitioner’s request because, after
giving Petitioner a full opportunity to explain his reasons for withdrawing his
waiver, Petitioner’s “sole offer of proof in support and explanation of his newly
expressed desire to testify was that ‘there's a tape of a witness that was in the
presence of Hina [Burkhart] and Serena [Seidel] on more than one occasion [that]
shows that Serena's committed perjury in ... court.” Id at 426 (brackets and
ellipses in original).

20

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 Page 21 of 35

PagelD#:

2721

With respect to the motion for new trial, the Hawaii Supreme Court
found that it was the first time that the trial court was made aware that Petitioner
wanted to testify to his version of events. Id Applying the manifest injustice
standard, the Hawaii Supreme Court found that the denial of the motion for a new
trial was not an abuse of discretion because Petitioner had made a knowing and
voluntary waiver of his right to testify, there was no substantive denial of due
process, and Petitioner was given an opportunity to be heard. Id at 427.
In the F&R, the Magistrate Judge stated that
[i]f Petitioner, during the conference in chambers before
closing argument, expressed a desire to testify about his
version of events, this Court would likely find that any
inconvenience to the trial court or prejudice to the
prosecution from reopening the defense's case was
minimal in comparison to Petitioner's interest in
testifying. Petitioner, however, did not do so. During the
conference in chambers, when the trial court addressed
Petitioner about his request to testify, Petitioner
responded only that there was a tape of a witness who
could establish that Seidel peijured herself at trial. Trial
counsel addressed the issue of the tape and then the trial
court asked Petitioner if there was anything else.
Petitioner said that there was not. During the conference
in chambers, Petitioner never said that he wanted to
testify about his version of the events at issue. While this
may have been his subjective intent, the trial court did
not consider it because Petitioner did not express this
intent. Based on the record, this Court finds that
Petitioner's request to reopen his case to testify was based
upon his desire to offer the purported perjury tape.
21

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 Page 22 of 35
2722

PagelD #:

(F&R at 34-35.)
Petitioner objects to the Magistrate Judge’s finding that his request to
reopen his case to testify was based upon his desire to offer the purported peijury
tape. Petitioner claims that the finding contradicts trial counsel’s statement made
in connection with the motion for new trial. In addition, Petitioner claims that he
knew he would not have been allowed to testify about the tape recording and
therefore, his request could only have been a request to present his version of the
facts. Finally, Petitioner asserts that the Magistrate Jude gave undue weight to
what Petitioner did not say in the chamber’s conference. In sum, Petitioner argues
that he wanted to testify about his own version of events, that the trial judge should
have known that that was his desire, and therefore, the trial court’s decision to not
reopen the case was contrary to clearly established federal law.
Petitioner’s arguments fail. First, Petitioner fails to cite to anything in
the record to support his objections. Second, the Magistrate Judge’s finding with
respect to what Petitioner made known to the trial judge during the chambers’
conference was correct. Petitioner has pointed to no evidence establishing that he
informed the trial judge during that conference that he intended to testify to his
version of the events, or that he wanted to testify to anything other than the
existence of the tape recording. Indeed, Petitioner concedes that he did not
22

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 Page 23 of 35
2723

PagelD #:

explicitly state that he wanted to testify about his version of events. (Pet.’s obj. at
4.) Instead, it is clear that the trial judge gave Petitioner two opportunities to say
anything he wanted to say, and Petitioner only raised the issue of the tape
recording, which is also the finding made by the Hawaii Supreme Court. Third,
that Petitioner’s counsel made a new argument at the time of the motion for new
trial and stated that Petitioner wanted to testify to his version of events, does not
change the fact that such desire was not made known to the trial judge during the
chambers’ conference. Moreover, Petitioner does not challenge the standard of
manifest injustice, which is applied on the motion for new trial.
Accordingly, Petitioner’s objections to the F&R as to Ground One are
DENIED and this Court ADOPTS the F&R.
B.

Ground Three. Ineffective Assistance of Counsel
1.

Forensic Evidence

Petitioner argues that with respect to his trial counsel’s failure to
conduct forensic testing of the physical evidence, the Magistrate Judge should have
considered it as a failure to investigate, which does not deserve a presumption of
effectiveness, rather than applying the standard of presumption of sound trial
strategy.

23

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 Page 24 of 35
2724

PagelD #:

This argument fails because, as the Magistrate Judge found, “even
assuming, arguendo, that trial counsel's failure to conduct forensic testing fell
below the objective standard of reasonableness, Petitioner's ineffective assistance
of counsel claim would still fail because he cannot establish prejudice.” (F&R at
58); see also Strickland v. Washington. 466 U.S. 668, 687 (1984) (to establish a
claim of ineffective assistance of counsel, a defendant must demonstrate that his
defense was so prejudiced by his counsel’s errors that there is a reasonable
probability that, but for his counsel’s deficient representation, the result of the
proceedings would have been different); see also Henslev v. Christ. 67 F.3d 181,
184-85 (9th Cir. 1995) (a petitioner must show that “the deficient performance
prejudiced the defense and made the trial results unreliable”).
Petitioner does not contest this finding that he cannot establish
prejudice because none of the physical evidence tested contained DNA from
Burkhart. Accordingly, this Court DENIES this objection to the F&R.
2.

Christian-Kimmev Tape

At trial, the prosecution characterized the tape recording of a
conversation between Petitioner and Lisa Kimmey (the “Christian-Kimmey tape”)
as representing a confession by Petitioner because on the tape Lisa says, “Taryn,
I’m not going to tell them you killed that guy. Okay. Okay.” Lisa says, “Every
24

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 Page 25 of 35
2725

PagelD #:

time I see a car that says ‘In loving memory of Vilmar,’ I want to puke. Petitioner
says, “Do you think I feel good? How do you think I feel? You’re not the one
who did it.”
Petitioner, however, presented evidence at the instant evidentiary
hearing that if the volume of the recording is increased at two points in the
recording, the jury could have heard Petitioner say “I'm not the one who did it” and
that he also said “I wasn't the one who stabbed him.” Petitioner next argues that
the Magistrate Judge’s finding that that his trial counsel acted reasonably with
respect to the investigation into the Christian-Kimmey Tape and provided
competent assistance is faulty because the jury was not made aware that they
needed to adjust the volume of the recording up and down to hear Petitioner’s
denials of killing Cabaccang. Therefore, Petitioner asserts, that merely being
informed to listen carefully was insufficient because there is no way of knowing
that the jury made the correct volume adjustments when listening to the tape.
Petitioner’s arguments are meritless. As noted by the Magistrate
Judge, and uncontested by Petitioner,
[tjrial counsel was aware of Petitioner's statement "I
wasn't the one who stabbed him, and I know that for a
fact." Counsel read the statement to the jury from the
transcript of the recording during closing argument and
played that portion of the tape for them. [Answer, Exh. T
25

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 _ Page 26 of 35
2726

PagelD #:

(Trans. 3/10/97) at 54-55.] Counsel even warned them
that the statement was "a little hard to pick up." [Id. at
54.] He also told the jurors that there would be
headphones in the jury room that they could "try to hear
better." [Id. at 55.] Thus, trial counsel knew about one
of the denials on the tape and knew that it was difficult to
hear the statement. Counsel pointed these facts out to the
jury in closing argument.
(F &R at 54.)
Accordingly, trial counsel certainly conducted a reasonable
investigation into the contents of the tape recording, because he realized that at
least one denial was on the tape. Further, counsel acted competently because he
informed the jury of the denial, and warned them that it was difficult to hear.
Finally, because the jury was made aware of the denial and informed that it was
difficult to hear, Petitioner cannot show that he was prejudiced by a failure to
explicitly tell the jury to turn the volume up a two specific points in the recording.
Accordingly, this Court DENIES this objection to the F&R.
3.

911 Tape

Petitioner contends that his trial counsel was ineffective for failing to
obtain and present an enhanced copy of the 911 tape of the call made by Robert
Perry, Jr. from the crime scene. At the instant evidentiary hearing, Petitioner
presented an audio engineer, John Mitchell, who testified that an unidentified male

26

Case l:04-cv-00743-DAE-K^C Document 153 Filed 09/30/08 Page 27 of 35
2727

PagelD #:

said “James Burkhardt [sic] just walked off’ on the 911 recording. Mitchell
testified that “James Burkhart” can be heard without enhancing the tape, although
the statement is at a very low level, and a person may need to listen to that portion
a number of times in order to hear it.
Respondent also presented an audio engineer, David Smith, who
stated that he could not verify Mitchell’s opinion that an unidentified male said
“James Burkhardt just walked off’. In Smith's opinion, the statement is
unintelligible. Further, the first word could not be the name ‘James,’ because it
consists of two syllables.
The Magistrate Judge found that because reasonable audio experts
could differ about whether the name ‘James Burkhart’ can be heard on the Perry
911 tape and because Mitchell testified that the name can be heard without
enhancing the tape, trial counsel’s decision not to retain an audio expert to enhance
the Perry 911 tape was within “the wide range of professionally competent
assistance.” See Strickland. 466 U.S. at 690.
Petitioner contends that this finding was in error because the jury
should have been made aware of the audio engineers’ opinions and made their own
determination as to which opinion was more compelling. This argument misses the
point because the first analysis under an ineffective assistance of counsel claim is
27

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 Page 28 of 35
2728

PagelD #:

whether it was with the range of competent assistance not to order an enhanced
version of the tape. This Court agrees with the Magistrate Judge and
independently finds that it was not below an objective standard of reasonableness
not to do so because Mitchell testified that enhancement was unnecessary, and
Smith testified that the statement was unintelligible.
Accordingly, this Court DENIES this objection to the F&R.
4.

Change in Defense Theory

Petitioner asserts that presenting alternate theories of defense at
closing that Petitioner did not commit the crime, but that if he did, it was in selfdefense, had no chance of convincing a jury to find in Petitioner’s favor, and thus
fell below the Strickland standard.
The Magistrate Judge found the decision was within “the wide range
of professionally competent assistance” because the trial court excluded the
witnesses who would have testified that Burkhart confessed to killing Cabaccang,
and therefore, the main theory of defense was not very strong.
This Court also finds on a de novo review that a change of the theory
of defense did not fall below an objective standard of reasonableness. As the main
theory of defense that Burkhart committed the killing was not supported by strong
evidence, it was within the wide range of competence and trial strategy to argue
28

Case l:04-cv-00743-DAE-K^C Document 153 Filed 09/30/08 Page 29 of 35

PagelD#:

2729

that in the event the jury believed the prosecution, it should consider that the
stabbing was in self-defense. Accordingly, this Court DENIES this objection to
the F&R.
5.

Handwriting Identification and Stereo Equipment

Petitioner alleges that his trial counsel was ineffective for failing to
discredit a lay witness’s identification of his handwriting by showing that a
handwriting expert hired by the prosecution had been unable to identify the writing
in question as Petitioner’s handwriting. Petitioner also asserts that his counsel was
ineffective for failing to introduce available evidence that Petitioner had purchased
the stereo equipment in his possession, and it was not stolen.
The Magistrate Judge noted that Petitioner did not elaborate on these
arguments in any of the briefing on the instant motion. The Magistrate Judge
found that these two claims pertained to Petitioner's conviction of attempted theft
in the third degree. The Magistrate Judge therefore, found that this Court did not
have habeas jurisdiction over such claims because Plaintiff has served his sentence
for the theft by the time he filed the Petition.
Petitioner objects to this finding and asserts that these issues relate to
the alleged motive for the homicide because the prosecution had claimed that

29

Case l:04-cv-00743-DAE-K^C Document 153 Filed 09/30/08 Page 30 of 35
2730

PagelD#:

Petitioner was attempting to steal stereo equipment from the victim’s car and killed
the victim to avoid being identified as the thief.
Although it is true that this evidence relates in part to the murder
conviction, Petitioner’s arguments fail because Petitioner has failed to point this
Court to any evidence in the record to establish that Respondent had a handwriting
expert or that Petitioner had receipts for his stereo equipment. Accordingly, there
is nothing upon which this Court could base a finding that counsel’s assistance fell
below the objective standard of reasonableness. Moreover, Petitioner has made
nothing more than a conclusory statement that such failure prejudiced his defense.
Therefore, this objection to the F&R is DENIED.
6.

Evidence of Seidel-Burkhart Relationship

Petitioner contends that his trial counsel was ineffective because he
failed to present evidence that Seidel and Burkhart knew each other, which could
have discredited Seidel’s assertion that Petitioner was the perpetrator.
The Magistrate Judge found that Petitioner presented only
unsubstantiated argument and did not identify the witness who could testify to the
Seidel-Burkhart relationship.
In his objections, Petitioner asserts that he identified James Shin in his
Rule 40 Petition in State court as the witness who could testify about the
30

Case l:04-cv-00743-DAE-KSC Document 153 Filed 09/30/08 Page 31 of 35

PagelD #:

2731

relationship. However, merely identifying this witness to this Court does not
provide this Court with evidence that Petitioner’s trial counsel was made aware of
this witness and the relationship, and yet failed to investigate further. Therefore,
this Court cannot evaluate whether trial counsel's failure to investigate this witness
was constitutionally deficient.
For these reasons, Petitioner’s objections to the recommendation that
Ground Three be denied are DENIED. This Court, therefore, ADOPTS the F&R
with respect to Ground Three and MODIFIES it in PART only to the extent that
the handwriting and stereo equipment claims were based upon both the theft
conviction and the murder conviction. As such, this Court has habeas jurisdiction
to consider such claims. Nevertheless, these claims fail because Petitioner has not
met his burden of providing evidence that his counsel’s assistance fell below the
objective standard of reasonableness or that he suffered prejudice.
C.

Ground Four. Actual Innocence
Petitioner asserts that he sustained his burden under an actual

innocence claim because Schmidt has now changed his testimony to state that he
believes Burkhart, rather than Petitioner, was the man that he saw leave the crime
scene.

31

Case l:04-cv-00743-DAE-K*>C Document 153 Filed 09/30/08 Page 32 of 35
2732

PagelD #:

A habeas petitioner can establish an actual innocence argument if
“new facts raised sufficient doubt about his guilt to justify the conclusion that his
[sentence] would be a miscarriage of justice unless his conviction was the product
of a fair trial.” Schlup v. Delo. 513 U.S. 298, 316 (1995). The court must
conclude that in light of the new evidence, no reasonable juror would have
convicted Petitioner. Id Where the court conducts an evidentiary hearing on the
new evidence the court should consider “how the timing of the submission and the
likely credibility of the affiants bear on the probable reliability of that evidence.”
Id. at 332.
The Magistrate Judge found that
Schmidt admits that his recollection of the events was
clearer at the time of the incident and at the time of
Petitioner's 1997 trial than it is today. Further, Schmidt
testified at the evidentiary hearing that, when he saw
Petitioner's picture in the photographic line-up during the
police investigation, he experienced a frightened feeling.
See also Answer, Exh. L (Trans. 3/3/97 AM) at 42-43
("The third one I came across, it frightened me. The hair
on the back of my neck stood up ...."). It seems
unlikely to the Court that Petitioner's picture would have
caused such a feeling if Schmidt only saw him in passing
at a restaurant. [Id. at 44 (Schmidt testified at trial "I
don't have any idea why I would have reacted that way to
someone just because I'd seen them at work.").] Schmidt
also testified that at least six months had passed between
the last time he saw Petitioner at the restaurant and the
police photographic line-up. [Id. at 44-45.] In addition,
32

Case l:04-cv-00743-DAE-K^C Document 153 Filed 09/30/08 Page 33 of 35
2733

PagelD#:

although Schmidt explains the reason for his allegedly
erroneous identification of Petitioner, Schmidt offers no
explanation why he was unable to identify Burkhart at
the time of the incident and trial. Thus, this Court finds
Schmidt's trial testimony to be more reliable than his
testimony in connection with the evidentiary hearing.
(F&R at 78.) Petitioner does not explain why this finding is inaccurate. This
Court agrees with the Magistrate Judge that Schmidt’s trial testimony is more
reliable than his new testimony for the reasons set forth above. With that in mind,
Petitioner has not raised sufficient doubt about his guilt based upon Schmidt’s
change in testimony.
Therefore, this objection is DENIED and this Court ADOPTS the
F&R.
CONCLUSION
The Court DENIES Respondent’s Objections (Doc. # 148) to the
Magistrate Judge’s Findings and Recommendation to Grant in Part and Deny in
Part Petition for Writ of Habeas Corpus, filed on August 29, 2008 (“F&R”, Doc. #
146) and DENIES Petitioner’s Objection to Portions of Magistrate Judge’s F&R.
(Doc. # 149).
This Court previously ADOPTED the F&R with respect to allowing
Petitioner to choose between dismissal of the entire petition or amending the

33

Case l:04-cv-00743-DAE-KcC Document 153 Filed 09/30/08 Page 34 of 35
2734

PagelD #:

petition to delete two unexhausted claims. (Doc. #151.) Petitioner amended the
petition. This Court now ADOPTS in PART the remainder of the F&R and
MODIFIES it in PART. The F&R is modified only with respect to the basis for
denying the portion of Ground Three that was based on handwriting and stereo
equipment claims. This Court MODIFIES that portion to hold that the handwriting
and stereo equipment claims were based upon both the theft conviction and the
murder conviction. As such, this Court has habeas jurisdiction to consider such
claims. Nevertheless, these claims fail because Petitioner has not met his burden of
providing evidence that his counsel’s assistance fell below the objective standard
of reasonableness or that he suffered prejudice.
This Court therefore, DENIES the Petition with respect to Grounds
One, Three, Four, Five, Six, Seven, and Nine. This Court GRANTS the Petition
on Ground Two. This Court ORDERS Respondent to release Petitioner within
seven days after the judgment in the instant case is filed, subject to appropriate
release conditions, unless the State elects to retry Petitioner; and ORDERS
Respondent to report to this Court, within ten days after the judgment in the instant
case is filed, whether Petitioner was released or will be retried. Clerk to enter
judgment.

34

Case l:04-cv-00743-DAE-^°C Document 153 Filed 09/30/08 Dage35of35
2735

PagelD#:

IT IS SO ORDERED.
DATED: Honolulu, Hawaii, September 30,2008.

David Alan azra
United StaterDistrict Judge

Tarvn Christian vs. Clavton Frank, et al.. Civil No. 04-00743 DAE-LEK;
ORDER ADOPTING IN PART AND MODIFYING IN PART THE
MAGISTRATE JUDGE’S FINDINGS AND RECOMMENDATION TO GRANT
IN PART AND DENY IN PART THE PETITION FOR WRIT OF HABEAS
CORPUS; AND ORDER DENYING RESPONDENT’S AND PETITIONER’S
OBJECTIONS TO PORTIONS OF MAGISTRATE JUDGE’S FINDINGS AND
RECOMMENDATIONS

35

APPENDIX E

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The questions presented implicate the Fifth Amendment to the United States
Constitution, which provides in pertinent part that “[n]o person...shall be deprived of
life, liberty or property, without due process of law.” U.S. CONST, amend. V.
The questions also implicate the Sixth Amendment right to counsel: “In all
criminal prosecutions, the accused shall enjoy the right... to have the Assistance of
Counsel for his defense.” U.S. CONST, amend. VI.
This case also involves the Eighth Amendment to the United States
Constitution, which precludes the infliction of “cruel and unusual punishments...”
U.S. CONST, amend. VIII.
The case also involves the Fourteenth Amendment to the United States
Constitution which applies the Fifth Amendment to the states and which provides,
in pertinent part that “No State shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without due process of law; nor deny
to any person within its jurisdiction the equal protection of the laws.” U.S. CONST.
amend. XIV
Article I, Section 9, Clause 2, United States Constitution.
The Privilege of the Writ of Habeas Corpus shall not be suspended, unless
when in Cases of Rebellion or Invasion the public Safety may require it.

28 U.S.C. S 2254.
(a) The Supreme Court, a Justice thereof, a circuit judge, or a district court
shall entertain an application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court only on the ground that he is in
custody in violation of the Constitution or laws or treaties of the United States.
(b)(l) An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted unless it appears that
(A) the applicant has exhausted the remedies available in the courts of the
State; or
(B)(i) there is an absence of available State corrective process; or
(ii) circumstances exist that render such process ineffective to protect the
rights of the applicant.
(2) An application for a writ of habeas corpus may be denied on the merits,
notwithstanding the failure of the applicant to exhaust the remedies available in the
courts of the State.
(3) A State shall not be deemed to have waived the exhaustion requirement 6
or be estopped from reliance upon the requirement unless the State, through counsel,
expressly waives the requirement.
(d) An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect to any
claim that was adjudicated on the merits in State court proceedings unless the
adjudication of the claim -

ii

(l) resided in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court
of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of
the facts in light of the evidence presented in the State court proceeding.
(e)(1) In a proceeding instituted by an application for a writ of habeas corpus
by a person in custody pursuant to the judgment of a State court, a determination of
a factual issue made by a State court shall be presumed to be correct. The applicant
shall have the burden of rebutting the presumption of correctness by clear and
convincing evidence.
(2) If the applicant has failed to develop the factual basis of a claim in State
court proceedings, the court shall not hold an evidentiary hearing on the claim unless
the applicant shows that (A) the claim relies on (i) a new rule of constitutional law, made retroactive to cases on collateral
review by the Supreme Court, that was previously unavailable; or
(ii) a factual predicate that could not have been previously discovered through
the exercise of due diligence; and
(B) the facts underlying the claim would be sufficient to establish by clear and
convincing evidence that but for constitutional error, no reasonable fact finder would
have found the applicant guilty of the underlying offense.

iii

